<html>
<title> - THE FAIR CHANCE TO COMPETE FOR JOBS ACT (H.R. 1076)</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


          THE FAIR CHANCE TO COMPETE FOR JOBS ACT (H.R. 1076)

=======================================================================

                                HEARING

                               BEFORE THE

            SUBCOMMITTEE ON CIVIL RIGHTS AND CIVIL LIBERTIES

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                               AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             March 13, 2019

                               __________

                           Serial No. 116-10

                               __________

      Printed for the use of the Committee on Oversight and Reform


                  Available on: http://www.govinfo.gov
                    http://www.oversight.house.gov or
                        http://www.docs.house.gov
                        
                 
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-063 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="45352a05263036312d2029356b262a286b">[email&#160;protected]</a>                         
                        
                        
                        
                   COMMITTEE ON OVERSIGHT AND REFORM

                 ELIJAH E. CUMMINGS, Maryland, Chairman

Carolyn B. Maloney, New York         Jim Jordan, Ohio, Ranking Minority 
Eleanor Holmes Norton, District of       Member
    Columbia                         Justin Amash, Michigan
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Katie Hill, California               Michael Cloud, Texas
Debbie Wasserman Schultz, Florida    Bob Gibbs, Ohio
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Clay Higgins, Louisiana
Jackie Speier, California            Chip Roy, Texas
Robin L. Kelly, Illinois             Carol D. Miller, West Virginia
Mark DeSaulnier, California          Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Kelly Armstrong, North Dakota
Stacey E. Plaskett, Virgin Islands   W. Gregory Steube, Florida
Ro Khanna, California
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
    Susanne Sachsman Grooms, Deputy Staff Director and Chief Counsel
          Elisa LaNier, Chief Clerk and Director of Operations
               Christopher Hixon, Minority Staff Director
         Valerie Shen, Chief Counsel and Senior Policy Advisor
           Yvette Badu-Nimako, Director of Policy and Counsel
                         Kristine Lam, Counsel
                          Amy Stratton, Clerk

                      Contact Number: 202-225-5051
                                 ------                                

            Subcommittee on Civil Rights and Civil Liberties

                    Jamie Raskin, Maryland, Chairman
Carolyn Maloney, New York            Chip Roy, Texas, Ranking Minority 
Wm. Lacy Clay, Missouri                  Member
Debbie Wasserman Schultz, Florida    Justin Amish, Michigan
Robin Kelly, Illinois                Thomas Massie, Kentucky
Jimmy Gomez, California              Mark Meadows, North Carolina
Alexandria Ocasio-Cortez, New York   Jody Hice, Georgia
Eleanor Holmes Norton, District of   Michael Cloud, Texas
    Columbia                         Carol Miller, West Virginia
                        
                        
                        C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on March 13, 2019...................................     1

                               Witnesses

The Honorable Cory A. Booker, Senator, U.S. Senate, New Jersey
Oral Statement...................................................     5
The Honorable Doug Collins, Member of Congress, Georgia
Oral Statement...................................................     7
Ms. Holly Harris, Executive Director, Justice Action Network
Oral Statement...................................................    13
Ms. Teresa Hodge, C-Founder& CEO, R3 ScoreTechnologies, Inc.
Oral Statement...................................................    15
 The Honorable Ron Johnson, Chairman, U.S. Senate, on behalf of 
  the Homeland Security and Governmental Affairs Committee
Oral Statement...................................................     3

The written statements for witnesses are available at the U.S. 
  House of Representatives Repository: https://docs.house.gov.

                           Index of Documents

The documents entered into the record throughout this hearing are 
  listed below, and available at: https://docs.house.gov.

  * Racial Profiling in Hiring: A Critique of New ``Ban the Box'' 
  Studies, National Employment Law Project; submitted by Rep. Roy

  * Empirical Evidence on the Effects of Ban the Box Policies: 
  The State of Literature in 2019, Jennifer L. Doleac, Texas A&M 
  University; submitted by Rep. Roy

  * Back to Business; How Hiring Formerly Incarcerated Job 
  Seekers Benefits Your Company, ACLU; submitted by Rep. Raskin

  * Letter from the Leadership Conference, National Employment 
  Law Project and ACLU; submitted by Rep. Roy

  * The Effect of Changing Employers' Access to Criminal 
  Histories on Ex-Offenders' Labor Market Outcomes: Evidence 
  fromthe 2010-2012 Massachusetts CORI Reform; submitted by Rep. 
  Roy

  * Ban the Box, Convictions, and Public Sector Employment, 
  Terry-Ann Craigie, Ph.D.

 
          THE FAIR CHANCE TO COMPETE FOR JOBS ACT (H.R. 1076)

                              ----------                              


                        Tuesday, March 13, 2019

                   House of Representatives
   Subcommittee on Civil Rights and Civil Liberties
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittees met, pursuant to notice, at 2:16 p.m., 
2154 Rayburn House Office Building, Hon. Jamie Raskin [chairman 
of the Civil Rights and Civil Liberties Subcommittee] 
presiding.
    Present: Representatives Raskin, Cummings, Maloney, Norton, 
Clay, Connolly, Sarbanes, Kelly, Plaskett, Khanna, Ocasio-
Cortez, Pressley, Amash, Massie, Meadows, Hice, Grothman, 
Comer, Cloud, Norman, Roy, Miller, and Steube.
    Mr. Raskin. The committee will come to order. So everyone 
finish up your selfies.
    [Laughter.]
    Mr. Raskin. Without objection, the chair is authorized to 
declare a recess of the committee at any time. This joint 
hearing of the Subcommittee on Civil Rights and Civil Liberties 
and the Subcommittee on Government Operations is on The Fair 
Chance to Compete for Jobs Act, H.R. 1076. I will now recognize 
the chairman of the full committee, Mr. Cummings, to give his 
opening statement, Mr. Cummings.
    Mr. Cummings. Thank you very much Chairman Raskin, to 
Chairman Connolly, Ranking Member Roy, Ranking Member Meadows 
for holding this hearing on H.R. 1076, the Fair Chance to 
Compete for Jobs Act.
    Our bill would do what many state agencies and private 
corporations are already doing. It would direct Federal 
employers and contractors not to ask about criminal histories 
of applicants until the conditional offer stage. The bill also 
includes important exceptions for law enforcement and national 
security positions requiring access to classified information 
and positions that, by statute, require access to criminal 
history information. It will give formerly incarcerated 
individuals a fair chance at a job and a piece of the American 
dream.
    Criminal justice reform is very personal to me. I have seen 
the problems that plague the system through many lenses. I saw 
it during my days as a young lawyer representing criminal 
defendants in Baltimore. I have seen it as someone who as a 
deep respect for dedicated police officers who serve and 
protect our communities.
    I have seen it as a Congressman representing a district 
where finding balance between law and order and crime and 
punishment is a profound concern for my constituents. I have 
also seen it as a concerned citizen, in my community where I 
have lived for three decades in the inner city of Baltimore.
    One lens that has not changed is the lens of color. We have 
seen how sentences issued by our criminal justice system 
disproportionately affects Americans of color. 70 percent of 
Maryland's incarcerated individuals are African American. 
Although African Americans comprise only 31 percent of the 
state's population. According to a report released by the ACLU, 
this was the highest proportion of incarcerated African 
Americans in the entire country in 2014.
    Formerly incarcerated individuals need jobs to support 
themselves and their families and after they have served their 
sentences. Jobs will also help them avoid recidivism, which 
helps us all. But they will be followed by criminal records 
long after they have repaid their debts to society. As a matter 
of fact, it will follow them to their graves.
    Criminal records limit their employment opportunities and 
are barriers to getting a job. We can reduce those barriers 
with H.R. 1076.
    Fortunately there is an emerging, bipartisan, thank God, 
consensus that this barrier has to come down, and that it needs 
to come down now. There are legislators on both sides of the 
aisle who are considering how we can transform lives and save 
money. And if we help exoffenders to truly put their past 
behind them, allow them to live a life that God meant for them 
to live.
    We have a unique moment of bipartisan momentum for true 
reform. And it is ours to seize. My hope is that this hearing 
inspires action. My republican colleagues and I disagree about 
many things. However, on the Fair Chance Act, we have not only 
found common ground, we have, because of a moral imperative, 
found higher ground.
    Finally, let me address the concern that couple of my 
republican colleagues have raised. Although this measure is 
largely bipartisan, a couple of my colleagues say that they are 
concerned that this bill can somehow hurt African Americans or 
others when certain racist employers discriminate against 
minorities who they think might have a criminal record.
    Look, you all know who I am. I have been working on civil 
rights issues for decades. I think I have some standing to 
speak on this matter. You would know that I would never support 
a bill that I believe would cause discrimination against 
African Americans. So take it from me, I support the bill, and 
we all should support the bill.
    But now ladies and gentlemen, it is up to us. It does not 
hurt us. We ask for your support. Now if there is evidence that 
someone is illegally discriminating against African Americans 
in the Federal hiring process, the remedy for that civil rights 
violation is to bring the full force of the law down on that 
individual. The remedy is not to withhold support for a bill 
that would help our communities and our Nation.
    We owe it to our children and to our grandchildren and to 
generations yet unborn. We must make lasting changes that give 
them opportunities of hope. We need to invest and reform now 
for future generations so that they can see a criminal justice 
system and an entire country they can believe in.
    We must remember that our children are the living 
messengers we send to a future we will never see. And we need 
to make every child's dream accessible, which starts with their 
parents.
    I would like to thank Senator Johnson, Senator Booker, and 
Congressman Collins for testifying before us today. I also 
thank the witnesses on the second panel, Ms. Holly of the 
Justice Action Network, Ms. Harris from the Justice Action 
Network, Ms. Teresa Hodge of R3 Technologies for sharing their 
insights with us today. And I look forward to our discussion 
scheduling and scheduling the Fair Chance Act for markup as 
soon as possible. And with that, Mr. Chairman, I yield back.
    Mr. Raskin. Thank you very much, Mr. Chairman for your 
powerful statement. It is now pleasure to welcome our 
colleagues who have come to testify, Senator Johnson from 
Wisconsin, Senator Booker from New Jersey, and our own 
Congressman Collins from Georgia. We are delighted to have all 
of you here to testify. We commend your bipartisan and 
bicameral advocacy for this important legislation.
    At the conclusion of your statements, without objection, 
your written statements will be made--your complete written 
statements will be made part of the hearing record. The 
microphones are sensitive, so please speak directly into them. 
And Senator Johnson, we will begin with you.

STATEMENT OF HON. RON JOHNSON, A UNITED STATES SENATOR FROM THE 
STATE OF WISCONSIN

    Senator Johnson. Thank you, Mr. Chairman. Chairman Raskin 
and Connolly, Ranking Members Meadows and Roy. Thank you for 
holding a hearing on the Fair Chance to Compete for Jobs Act 
and giving me the opportunity to testify on its behalf.
    I also want to thank Senators Booker, Chairman Cummings, 
Congressman Collins, and many others who--for working with me 
on this legislation over the last few years.
    Our founders specified three unalienable rights endowed to 
all by our Creator, ``Life, Liberty, and the pursuit of 
Happiness.'' In comparison to life and liberty, I used to think 
the pursuit of happiness was more of a frivolous concept, a 
less important right. I no longer believe that. Life without 
dignity and liberty without the freedom to dream, aspire, and 
earn your own success would be rights with dramatically 
diminished value. The right to pursue happiness is therefore 
crucial in the fulfillment of the first two rights, life and 
liberty.
    Few will ever truly be happy living in dependency. Work is 
essential in allowing to pursue happiness by providing them the 
dignity of earning their own success. For those reentering 
society after incarceration, work is the key factor in 
determining whether they will turn their lives around or end up 
back behind bars. One study showed those who maintain 
employment for one year post-release had a 16 percent 
probability of returning to prison versus a 52 percent 
probability for those without jobs. That is a significant 
difference.
    A lower rate of reincarceration should result in less 
crime. Instead of bearing the cost of imprisoning people, 
communities can benefit from their contribution to the tax 
space. But most importantly, these individuals are not just 
mere statistics, they are human beings, and we should all want 
them to succeed in life.
    The Fair Chance to Compete for Jobs Act recognizes the 
crucial role employment plays in transforming lives. Just 
because some may have temporarily lost their freedom because 
they committed a crime does not mean they have lost their right 
to pursue happiness.
    My work reforming incarcerated men and women in Wisconsin 
has shown me the significant barriers they face putting their 
lives back together once they leave prison. My involvement in 
the Joseph Project where we connect those genuinely seeking to 
turn their lives around with the job opportunities throughout 
the state has taught me how transformational a good paying job 
can be. It is the most inspirational activity my staff and I 
have been involved in since I took office.
    I fully understand the legitimate concerns employers have 
about offering a job to someone convicted of a crime. Many 
criminals will never reform and could pose a significant threat 
and danger to an organization. But many others who have been 
incarcerated realize a life of crime offers no positive future. 
It is those individuals and their future employers that this 
legislation seeks to help.
    Employers who give Joseph Project participants a chance 
consistently tell me that they have some of the best attitudes 
within their organization. Having a positive attitude and 
making a daily commitment to succeed are the key elements of 
the Joseph Project's 12-hour training program. Employers who 
have taken the chance on these individuals have been rewarded 
with great employees.
    The Fair Chance to Compete for Jobs Act simply provides the 
opportunity for an applicant to convey the right attitude and 
what they can contribute to an organization without being 
automatically excluded for consideration because of their 
checkered past. People do choose to turn their lives around, 
and society should make it easier, not harder, for them to do 
so.
    Prior to hiring, an employer will still have access to an 
applicant's complete history in order to make a fully informed 
hiring decision. Nothing in the legislation prevents that. It 
is also important to note, this legislation only applies to 
Federal Government and its contractors. Although we do hope 
other employers will see its value and voluntarily adopt 
similar hiring policies.
    Working with the Joseph Project, numerous employers from 
Wisconsin are already being rewarded with dedicated employees 
by deciding to hire individuals with criminal records. 
Nationally, other large employers, including Facebook, Google, 
Walmart, and Koch Industries have not only pledged to delay the 
criminal background check but have also begun hiring formerly 
incarcerated individuals.
    My hope is that by passing the Fair Chance to Compete for 
Jobs Act, employers throughout America will see the value in 
helping people transform their lives through productive 
employment.
    Thank you.
    Mr. Raskin. Thank you, Senator Johnson.
    Senator Booker?

STATEMENT OF HON. CORY BOOKER, A UNITED STATES SENATOR FROM THE 
                      STATE OF NEW JERSEY

    Senator Booker. Thank you very much, Chairman Raskin, 
Chairman Connolly, Ranking Member Roy and Ranking Member 
Meadows. It is really an honor to be here. I am grateful that 
you all would invite me. Thank you for holding this hearing, 
most importantly. I am grateful for Chairman Cummings for his 
leadership on this bill. He has been an incredible friend and 
inspiration to me in my short time in the U.S. Senate, and I 
want to thank Representative Collins for his support as well.
    I want to gratefully acknowledge my--the bill's coauthor 
with me--the lead republican sponsor in the Senate, Senator 
Johnson, who spoke very passionately and personally about this 
issue and helped us to usher this bill through committee three 
times. All three Congresses that I have been a senator since it 
was first introduced in 2015.
    There are more than 650,000 people released from prison 
each year. People who have served their time, paid their debt 
to society, and are returning home to their communities in 
hopes for a second chance. But all too often, they are freed 
from physical bars, but they encounter, what I believe are 
lifetime sentences. They have, literally, 45,000 collateral 
consequences is what the American Bar Association refers to 
them as. These collateral consequences prevent them from 
getting opportunity. And you have to understand, the 
overwhelming majority of these people are nonviolent offenders. 
We are in a country, that there was more arrests for a 
marijuana possession in 2017, than there were for all violent 
crimes combined.
    And so, for things that past Presidents have admitted to 
doing, things that people in the body admitted to doing, I see 
it out on the trail, now it is en vogue for senators to admit 
to doing it. Low-income, poor people, and disproportionately 
minorities are being targeted by a failed drug war and then 
face lifetime consequences for possession of drugs and other 
crimes.
    We are a nation that believes in second chances. And one of 
the most difficult things that people do when they come out of 
prison is just--who want to work, who are dedicated to that--
finding a job. The barriers for finding jobs.
    Research has shown that a conviction record reduces your 
likelihood of a job callback by nearly 50 percent, and this is 
even more acutely felt by people of color who have even a less 
likelihood of getting a job after a conviction. The same 
research has found that while 17 percent of Whites with a 
criminal record were given a callback only 5 percent of African 
Americans were.
    This is a reality I know. I have spent over 20 years of my 
life living in the community I love, which is a low-income 
community. The median income in my neighborhood for the last 
census is $14,000 per household. And when I hear my neighbors 
who struggle for finding a job because of drug convictions for 
doing things that people on college campuses do every day. What 
we are seeing is a patently unfair system, and we must tear 
down the barriers to employment that are stacked so high 
against people who have done their time and now just look for 
hope.
    In my home county, Bergen County, a father wrote me about 
his son who was convicted for nonviolent drug charges. But 
since his rehab, he has finished high school, attended 
technical school, been certified as a heating and air 
conditioning technician, but has repeatedly been denied jobs 
simply because of his criminal record.
    At the end of the last Congress, in a bipartisan, bicameral 
effort, the First Step Act, which its name suggests was just a 
step in the right direction, was able to be passed, but 
unfortunately we have a long way to go to ensure that those 
released under the First Step Act are set up for success and 
not continued failure.
    It was a Republican President Bush who said, ``America is 
the land of second chances.'' And when the gates of the prison 
are open, the path ahead should lead to a better life. We have 
got a lot of work to do to realize that promise.
    The Fair Chance Act allows qualified people with criminal 
records to get their foot in the door and be judged by their 
merit not by a past conviction. It allows employers to get to 
know an individual and ultimately make them an offer. But 
before that person is hired, that is when they share the 
criminal history.
    In short, the bill would preclude the Federal Government 
and Federal prime contractors from asking a job applicant about 
his or her record until a conditional offer is extended. And, 
yes, an employer has the right to know whether someone is 
considering a job has a criminal history. But by placing that 
information at the end of the interview process, it allows a 
candidate to be judged objectively instead of their having 
their resume being reflexively tossed out.
    This bill strikes the right balance between giving 
returning citizens a fair shot at finding a job and allowing 
employers to know who they are hiring. Now we already have a 
nation where 33 states and the District of Columbia and over 
150 cities and counties have adopted Fair Chance policies.
    In the public sector, and they have proven so successful, 
that 11 states and 17 cities and counties have extended their 
Fair Chance policies and laws to private employment. Here in 
D.C., after a policy was adopted, there was a 33 percent 
increase in the number of applicants whose records were higher 
which resulted in 21 percent of them, of all new hires in D.C., 
being people with records. It is an incredible success.
    The bill is going to help break the dangerous cycle of 
recidivism and give people with criminal records a fair shot in 
a system that is still so tragically unfair. We have a lot more 
work to do.
    But this is about our Nation's capacity for forgiveness and 
redemption. Are we a nation that believes in second chances or 
not? Are we a nation that believes a person should not be 
judged by the worst thing that they have done and instead, be 
seen as who they are. People with endless potential, not just 
for redemption, but for contribution in our society.
    God, we have a criminal justice system that is so broken. 
It feeds on the poor. It feeds on the hurt. It feeds on the 
marginalized, the mentally ill, the addicted. Let us do 
something that rights the scales in our country and empowers 
people to succeed. Let us be about restorative justice, instead 
of retribution against people who often need more help than 
continued harm. Thank you.
    Mr. Raskin. Thank you, Senator Booker.
    Congressman Collins?

 STATEMENT OF HON. DOUG COLLLINS, A REPRESENATIVE IN CONGRESS 
                   FROM THE STATE OF GEORGIA

    Mr. Collins. Thank you, Chairman Raskin and Ranking Member 
Roy and also Chairman Cummings, full committee, and it has been 
a pleasure to work with this, Ranking Member Jordan.
    Thanks for inviting me to testify. It is good to be back 
into this room where I first started in Congress with Mr. 
Meadows and us, when we first came here bright eyed and bushy 
tailed ready to take on the world, and it is good to be back 
and see you again.
    Look, I am going to be brief, because we have talked about 
this a lot, and you have heard about the importance of the Fair 
Chance Act from those senators that just spoke before me. This 
legislation clearly draws on broad bipartisan support, and it 
should. It is common sense. As it looks to build on the work 
that this this chamber started last year the First Step Act.
    I worked on the First Step Act with my friend, Hakeem 
Jeffries and introduced it with a belief that we can and should 
do better when it comes to our prison system and our criminal 
justice system. And I cannot think a more proud moment for me 
to stand in the Oval Office while President Trump signed this 
legislation, who bought into it and understood that people 
matter. Redemption matters. And a chance is what is important. 
And to hear the President say that and sign that was a great 
day.
    I am committed, then, that the First Step Act was just 
that, a first step, and not a final step. I continue to looking 
for ways to work across the aisle on issues related to the 
justice system, redemption, and recidivism reduction. The Fair 
Chance Act is part of that commitment, and I am proud to be 
working alongside Chairman Cummings on this legislation.
    The Fair Chance Act is important, both in terms of what it 
does, and in terms of the example it sets. The bill brings Ban 
the Box to the Federal Government. It prevents Federal 
employers and contractors from asking about a criminal history 
until the final stages of the interview and application 
process.
    Too often individuals who have atoned for their mistakes 
and served their time are automatically disqualified or 
overlooked because of their record. These individuals are 
denied a chance to rejoin and contribute to society even though 
they have paid their dues.
    This scenario can lead to a cycle of recidivism because an 
individual is unable to find work. We can do better. We can 
provide meaningful opportunities to those who have paid their 
dues who are seeking a second chance. Thirty-three states, 
including my home state of Georgia have Ban the Box. The 
Federal Government can learn from their example and their 
successes.
    Governor Deal, a former member of this body, in Georgia, 
was a leader on issues like this. And much of what has been 
accomplished on reform efforts in Congress have been built and 
modeled after those efforts. The Fair Chance Act continues that 
effort.
    It is my hope that members of this committee and all of my 
colleagues will look at a strong, bipartisan support of this 
bill already has and join this effort to reduce recidivism, 
strengthen communities by banning the box at the Federal level.
    I made this comment to President Trump before he signed it, 
the bill, the First Step Act. I said, ``Mr. President, many 
times you're gonna be presented with bills that are simply 
lines on a page.'' And hearing the echoes of the chairman of 
this great committee and the ranking member and others, I told 
him, I said, ``On this bill, there are actually faces behind 
those lines,'' and we have actually seen that come true.
    When we take a step of humanity, Mr. Chairman, when we take 
a step to looking how we can help in solid ways. Recognizing 
the role of our criminal justice system and those of who had 
made mistakes and then helping them once they get out, not 
diminishing the system but enhancing it. This is what this bill 
does, and I look forward to continued support. I thank the 
chairman, the ranking member, and I appreciate the opportunity 
to testify.
    Mr. Raskin. Congressman Collins, thank you very much. We 
very much appreciate your testimony and those of our now-
departed colleagues, and this panel is dismissed.
    Before I now turn to opening statements from the 
subcommittee, I just wanted to recognize that this is a joint 
hearing of the new Subcommittee on Civil Rights and Civil 
Liberties and the Government Operations Subcommittee. And this, 
in fact, the first hearing of the new subcommittee. So I just 
wanted to quickly recognize all of the members.
    We have got an all-star cast on the subcommittee: Carolyn 
Maloney, Lacy Clay, Debbie Wasserman Schultz, Robin Kelly, 
Jimmy Gomez, Alexandria Ocasio-Cortez, Ayanna Pressley, Eleanor 
Holmes Norton. On the minority side we have Chip Roy, who is 
the ranking member, Justin Amash, Thomas Massie, Mark Meadows, 
Jody Hice, Michael Cloud and Carol Miller. And I just want to 
welcome and thank all of the members of the new subcommittee.
    And I want to ask the clerks if they would prepare the 
table and ask the new panel of witnesses to come forward to the 
witness table during our opening statements.
    At this time, I will recognize myself for five minutes for 
an opening statement. And again, I want to extend my warm 
greetings to Mr. Roy, the ranking member, and also to my Vice 
Chair, Ms. Ocasio-Cortez.
    This is an exciting and timely hearing. The laboratories of 
democracy across the country have been banning the box for 
quite some time now. So we have a good table of experiences to 
draw from as we enter upon this legislation. Six years ago, my 
home state of Maryland became the ninth state to ban the box 
and to improve fair hiring practices in our local communities.
    Today, 33 states and more than 150 counties and cities have 
instituted Ban the Box in addition. Many companies, like 
Walmart, Koch Industries, Target, Home Depot, and Bed Bath & 
Beyond have embraced the policy, too. So Congress can strike a 
decisive blow for reentry and reintegration by enacting this 
policy at the Federal level.
    The bill would codify the existing OPM guidance for Federal 
agencies to ask about criminal histories only after a 
conditional job offer has been made rather than automatically 
screening out applicants at the start of the process, which is 
still taking place in too many workplaces.
    When highly qualified job seekers do not even make it to an 
interview, there is nothing but lost opportunity on all sides. 
To the employer and the applicant, but also the applicants' 
families and our local communities.
    The Fair Chance Act includes important exceptions for 
sensitive positions in national security and law enforcement, 
and it would not force any employer to hire any applicant they 
do not want to. But the bill would institute Ban the Box for 
millions of Federal contractor positions for the first time, 
effectively opening up the possibility of employment to this 
critical and expanding sector.
    Study after study have shown that steady and meaningful 
employment is the most significant factor for reducing 
recidivism. Finding and keeping a job is the critical way for 
returning citizens to truly reintegrate and make contributions 
to society.
    I look forward to hearing more about the details and the 
rationale for the Fair Chance Act from our witnesses as the 
committee plans to take up the bill at a markup as well.
    I hope today will be the first of many hearings we have to 
advance the bipartisan cause of a fair and just criminal 
justice system.
    I also want to thank Teresa Hodge from Baltimore, Maryland 
for her tireless advocacy in Maryland to help people with 
criminal histories successfully get back on their feet and into 
society. Enduring prison, going to prison and being released 
and building bridges to success, not only for yourself but for 
other people is a powerful testament to the potential that this 
legislation has.
    There are still way too many people that have paid their 
debt to society but are never been given a fair chance to work 
in dignity again. So I look forward to hearing how this 
legislation will help.
    And with that, I will turn to Mr. Roy, and I recognize the 
gentleman for five minutes.
    Mr. Roy. Thank you, Mr. Chairman. I appreciate that. Thank 
you very much for holding this hearing on this important 
subject. I applaud you for making this issue the first that we 
are going to cover in this Congress. I appreciate you doing 
that. It is an important issue. I would like to thank the 
witnesses for being here and each of your devotion of your life 
to this important issue, and I look forward to hearing from 
you.
    I think it is safe to say that everyone in this room wants 
those in our society who have committed crimes to be 
rehabilitated back into the community and live a law-abiding 
and productive and fulfilling life.
    The chairman and panel may not know, I was formerly the 
Vice President of Strategy of the Texas Public Policy 
Foundation where we had Right on Crime as a core component of 
that institution's purpose. I was proud to work with those 
individuals as we have advanced, you know, policies to change, 
both in Texas and now at the national level.
    A huge part of reentry success is gaining and maintaining 
employment. There is dignity in work. Employment is part of the 
rehabilitative process. Think about the challenges such a 
person faces as they seek employment, especially those who were 
recently incarcerated. You need clothes for an interview, proof 
of identification. You need to find transportation to get to an 
interview. You need to know what to say when you get to the 
interview, and eventually, you will be faced with the dreaded 
question, ``Have you been convicted of a crime?''
    And this is the issue we are examining today. And it is a 
tough issue. And, again, I applaud this committee for putting 
this issue front and center. I do have some concerns that I 
think we should address and look forward to hearing about 
today.
    The chairman mentioned some of those concerns earlier, 
Chairman Cummings, about, you know, some of the issues that 
have been raised in the past. And, you know, one of those is 
pointing to the question of hiring people with convictions, and 
this policy may not actually advance the cause that I think is 
being purported to advance, and that is something that we will 
address today.
    And, you know, why do I say that? Because there is some 
evidence that suggests that this bill may run afoul of the goal 
based on some of the studies and the history that people have 
looked at.
    I ask unanimous consent to enter into the record, written 
testimony provided for this hearing by Texas A&M Professor of 
Economics, Jennifer Doleac.
    Mr. Raskin. Without objection.
    Mr. Roy. Now, I say as a University of Texas School Law 
graduate, I say that with some hesitation, right, this is an 
Aggie's report. And I say that as I am married to an Aggie, so 
I am going to get in trouble back home.
    But this is an important study. It is an important review 
of the record. And I think it was done from an objective, non-
biased view by this professor. I think it is important for the 
discussion on the record.
    Professor Doleac's testimony reviews the empirical evidence 
on polices that prohibit employers from asking job applicants 
about their criminal records. And that evidence shows that 
these policies may not actually increase employment for people 
with records. And in fact, the evidence suggests it may 
actually reduce employment opportunities. Additionally, it may 
reduce minority hiring overall and disproportionally hurting 
young African American men who have no criminal record.
    I would also ask unanimous consent to enter into the 
record, a May 15, 2018 letter from then-Chairman Gowdy to the 
Government Accountability Office. This letter reads, in part, 
``Given the goal of improving employment outcomes for those 
with criminal records, we would like GAO to examine whether the 
Federal Ban the Box initiative is achieving its intended 
purpose and determine whether there have been any observable 
changes in the hiring of individuals with criminal histories 
attributable to this initiative.''
    So without objection, I would like to put that in the 
record.
    Mr. Raskin. Without objection.
    Mr. Roy. And Ranking Member Jordan recently requested that 
GAO continue to pursue this effort. I think we should analyze 
the current Federal policy, determine if it is effective and 
then legislate to appropriate, based on evidence.
    The only last thing I would point is, there are a couple of 
questions that I think is important for us to look at. You 
know, why should an employer spend time and resources 
interviewing individuals who should not be hired, if you know 
that. And if you had that information, you might know it from 
the get-go. I just think that is an important thing to review.
    One might hypothetically ask, you know, if I am 
particularly in charge of hiring someone to be in charge of, 
you know, tax collections and enforcement at the IRS, would I 
really want to hire Michael Cohen, for example, based on his 
recent running afoul with the IRS. I think that would be a 
reasonable question to ask if you knew that right out of the 
gate.
    And then there are other methods to consider regarding 
statute of limitations. Are there ways to deal with this in a 
slightly different way, or sort of a partial ban the box?
    I look forward to hearing information on those. These are 
challenging issues, and I thank the chairman for having the 
hearing. I thank the witnesses for being here, and I look 
forward to learning more about how to help more people with 
criminal records find work success and lead crime-free lives, 
and I yield back to the chairman.
    Mr. Raskin. Okay, I now recognize the Ranking Member of the 
Government Operations Subcommittee, Mr. Meadows of North 
Carolina, for five minutes for an opening statement.
    Mr. Connolly. Thank you, Mr. Chairman.
    Mr. Raskin. Well, are you ready----
    Mr. Meadows. I yield to the Chairman of the Government 
Operations.
    Mr. Raskin. You know what, we recognize Mr. Connolly of 
Virginia for five--I was just giving you a second.
    Mr. Connolly. I forgot, we are called chairmen, now. He is 
the ranking member. I just automatically--sorry.
    Mr. Raskin. All right, we will let Mr. Meadows go. We will 
give Mr. Connolly a minimum----
    Mr. Meadows. I will be very, very, very brief. I want to 
thank the chairman and the ranking member of the Civil Rights 
subcommittee. Obviously, my good friend, Mr. Connolly, the 
chairman of the full committee, Mr. Cummings, who articulated 
exactly why this is such a critical issue.
    I am probably one of the few Members of Congress in the 
private sector that has actually hired those that have been 
convicted and incarcerated and actually hired them to work for 
me in the private sectors, and it has been a very rewarding 
[experience]and truthfully, [they were] some of the best 
employees that I have had.
    I must admit, that when I did it, it was with great fear 
and concern. Not necessarily for myself, personally, but from 
the attorneys that actually represented my corporation. They 
said, ``Are you crazy?'' You know, ``What are you doing? The 
liability, the potential liability.'' And so, I think that this 
is a good second step. It should not be the final step. We 
should answer some of the difficult questions that we have, and 
I look forward to working in a bipartisan way.
    Look forward to hearing from both of you and with that, I 
yield back.
    Mr. Raskin. Mr. Meadows, thank you for your always-
thoughtful comments. And now we turn to Chairman Connolly.
    Mr. Connolly. I thank my good friend, Mr. Raskin. And 
again, I am going to have to use to this chairman thing.
    Mr. Raskin. Hopefully not for too long.
    Mr. Connolly. Been a while. So forgive me. This is a really 
important subject, and it is quite striking that 33 states and 
150 cities and counties have adopted policies preventing public 
employers from asking about an applicant's criminal history 
until a later stage in the hiring process.
    And in Washington, DC. alone, that Ban the Box policy has 
resulted in a 33 percent increase in employment for the 
formerly incarcerated.
    In November 2015, President Obama moved to implement a Ban 
the Box policy across the Federal Government. And that was 
clearly intended to encourage more individuals with requisite 
knowledge, skills, and ability to apply for Federal positions.
    I happen to believe more can be done to help ex-offenders 
find employment. Federal contractors, for example, are a great 
example. They play an important role in supporting Federal 
operations. New York University professor Paul Light estimates 
that among the 40 percent or 3.6 million of the 9 million 
individuals who comprise the Federal work force are contract 
employees.
    And as I have said often, the Federal contracter does work 
shoulder to shoulder with Federal employees. Sometimes even 
performing this very substantially similar task, which, by the 
way, is a problem in terms of equity after a shutdown. Because 
we pass laws to make sure our Federal employees are kept whole, 
but their Federal contract counterparts are not. Even though 
they may be working in the same office, cubicle by cubicle, 
doing the same work.
    And so, similarly, I think we have some real opportunities 
in expanding Ban the Box to Federal contract employees and 
would very much be interested in hearing testimony today about 
that as well.
    So thank you, Mr. Chairman. We are delighted to join you in 
holding this hearing. And thank you, Mr. Cummings, especially 
for your vision on this subject. [It] was very much 
appreciated.
    I yield back.
    Mr. Raskin. Excellent, thank you very much, Mr. Connolly. 
Now I want to briefly recognize Congressman Massie to introduce 
the witness from his home state of Kentucky.
    Mr. Massie. Thank you, Mr. Chairman. It is my pleasure and 
my honor to introduce Holly Harris, the Executive Director of 
the Justice Action Network. She was born and raised in 
Kentucky, and she has done a lot of great work there. She 
previously served as a litigator at the Justice Cabinet and in 
senior leadership roles for Kentucky-elected officials. In 
fact, it was there, that we worked together on the industrial 
hemp issue, and we succeeded. She did a great job there in 
Kentucky for us.
    Now she is the Executive Director of the Justice Action 
Network, which has gone from a three state presence to a 17 
state presence, and I want to thank you, Ms. Harris for your 
passion and leadership on these issues and other issues that 
matter to the people of Kentucky and the people of this entire 
United States.
    Mr. Raskin. Thank you very much. Will the witnesses please 
rise?
    [Witnesses sworn.]
    Mr. Raskin. Let the record show the witnesses have answered 
in the affirmative. Thank you and please be seated. The mics 
are sensitive, so please do speak directly into them.
    Without objection, your full written statements will be 
made part of the record. And with that, Ms. Harris, you are now 
recognized to give the verbal presentation of your testimony 
for five minutes.

STATEMENT OF HOLLY HARRIS, EXECUTIVE DIRECTOR, JUSTICE ACTION 
NETWORK

    Ms. Harris. A miracle of technology. Again thank you, 
Chairman Raskin, Chairman Connolly. Thank you, Representative 
Massie. I want to thank all the members of the committee for 
inviting me to be here today.
    Again, my name is Holly Harris. I am the Executive Director 
and president of the Justice Action Network. We are the largest 
bipartisan organization working at both the Federal and state 
levels to make our justice system fairer and more effective.
    The Network is a relatively young organization. We launched 
in 2015 and started with three target states. We are now built 
out in 17 states across the country in which we have helped to 
pass more than 70 pieces of significant criminal justice reform 
legislation.
    At the Federal level, we were honored to support and serve 
as a bipartisan convener for many of the organizations and 
lawmakers that work to pass the First Step Act. And if it is 
Okay, I would like to just immediately, right off the top 
address some of the questions that you had, Ranking Member, 
Roy.
    You did reference a study or some testimony that talked 
about how, potentially, Ban the Box could exacerbate racial 
disparities, and I think it is really important to note that 
the Leadership Conference on Civil and Human Rights and 
Chairman Cummings and Teresa Hodge with JustLeadershipUSA and 
some of the most important civil rights voices of my generation 
are zealous supporters of this policy, and I think we ought to 
be deferring to those voices on what is best for minority 
communities and at-risk populations.
    In addition to that, I also want to address your point 
that, you know, that employers may waste their time by 
interviewing folks who may ultimately not be eligible for a 
job. And I will tell you what we hear from employers, and I 
will tell you, it is really critical in my home state of 
Kentucky, there is a real dearth of skilled labor out there.
    And what we hear from employers is that they are desperate 
for workers. And so, quite frankly, they are excited about 
seeing the Federal Government take this move, because it will 
empower them to do the same.
    With that, I will move on with my testimony. For many of 
those reasons, Fair Chance hiring or Ban the Box, as most 
people refer to it, actually tops our list of legislative 
priorities. And it has a vaunted place among our state 
legislative victories, because it was the very first bill that 
we helped to pass in the states.
    House Bill 56 in the Battleground state of Ohio passed with 
near unanimous support on both sides of the aisle, in both 
chambers at the close of 2015, the year that we launched the 
Network.
    Since then, we have successfully urged implementation of 
Ban the Box in Arizona, Louisiana, Oklahoma, Pennsylvania, 
Indiana, and in many of your home states. And not to play 
favorites, but I will start with the Commonwealth of Kentucky.
    Representative Massie, in our very first meeting with 
Kentucky policymakers in 2016, we urged executive action on Ban 
the Box and in 2017, the policy was implemented. Thanks, in no 
small part, to some members of Kentucky's Federal delegation, 
you, Senator Rand Paul, Congressman Yarmuth, getting the hemp 
ban back together again. There were pioneering voices in 
criminal justice reform in our home state.
    Another great Commonwealth representative on this 
committee, Massachusetts became one of the first states to pass 
Ban the Box by legislation back in 2010. Chairman Raskin, your 
state legislature in Maryland was next, banning the box for 
public employment in 2013. That same year, Illinois Governor 
issued an executive order banning the box for Government 
employers. And the following year, the state legislature passed 
an even more expansive version.
    In 2014, the District of Columbia banned the box for public 
and private employers. Congressman Hice--I saw Congressman Hice 
earlier. I had the honor of meeting Governor Nathan Deal, who 
previously led your home state of Georgia. As you well know, 
Governor Deal was a national leader in all areas of criminal 
justice reform policy. He even got a unanimous vote on 
sentencing reform in Georgia, which is pretty unheard of. But 
he implemented Fair Chance hiring by executive order in 2015.
    Chairman Connolly, that same year, Virginia's Governor also 
signed an executive order also banning the box and shortly 
thereafter, Representative Ocasio-Cortez, the New York 
legislature did the same.
    The very next year, in 2016, Wisconsin banned the box for 
government jobs and just a week later, Missouri followed suit 
implementing Fair Chance hiring for public employment. The 
California State Assembly passed Ban the Box, for public and 
private employers in 2017. And in 2018, Michigan, banned the 
box for government jobs by executive order. Finally, and not to 
be outdone, the legislature of the U.S. Virgin Islands, banned 
the box for public and private employers in November that same 
year.
    Other witnesses today have cited to data that a job can be 
the greatest deterrent to returning to a life of crime. Others 
will share their compelling stories of the consequences of a 
criminal record, not just on themselves but on their families 
and on their children. My role here is to remind everyone that 
we are not reinventing the wheel with this legislation. We are 
simply asking Congress to catch up to what is happening in 
their own backyards.
    All in, 33 states, diverse in population, geography, and 
political ideology have implemented Fair Chance hiring policies 
that, at the very least, ensure people with records have an 
opportunity to get their foot in the door and present their 
skills and qualifications before they have to disclose their 
criminal histories.
    At a time when some studies show that as many as one in 
three, oe in three American adults have a criminal records, we 
simply cannot afford to exclude this population from employment 
opportunities.
    And as a woman who hails from Kentucky, a state that has 
been ravaged by the drug scourge, I can tell you that we are 
not ready to throw in the towel on our friends and our family 
members who are struggling to overcome addiction, who have made 
mistakes but simply want a chance to get back on their feet, 
support their families, and be productive members of society 
again.
    Mr. Raskin. Ms. Harris, let me stop you there, and you will 
get a chance, during questioning to offer more thoughts.
    Ms. Harris. Yes sir.
    Mr. Raskin. Thank you for your excellent testimony. Ms. 
Hodge?

     STATEMENT OF TERESA HODGE, C0-FOUNDER & CEO, R3 SCORE 
                       TECHNOLOGIES, INC.

    Ms. Hodge. Thank you. Good afternoon, Chairman Raskin, 
Ranking Member Jordan, Ranking Member Roy, and members of this 
committee.
    I am Teresa Hodge, and I am testifying today on behalf of 
JustLeadershipUSA. And the millions of formerly incarcerated 
and convicted people in the United States. JustLeadership is a 
national nonprofit, dedicating to cutting the U.S. corrections 
population in half by the year 2030. Led by directly impacted 
people, we believe that those closest to the problem are 
closest to the solution but furthest from the resources and 
power.
    For this reason, JustLeadership works to ensure the 
directly impacted people are at the center of the criminal 
justice reform efforts, because we have the most relevant 
expertise and the most to gain from such reforms. I applaud 
this committee for recognizing this and inviting me to testify 
today.
    For those of us who have been incarcerated and convicted, 
we hold a similar truth. We know we are better than our worst 
mistake. We are people who can do and make positive 
contributions to this country but countless stigmas and 
structural barriers impede our success.
    One of the most harmful of these barriers is the consistent 
discrimination we face when pursuing jobs. Today, more than 70 
million adults in this country have a criminal record, and we 
confront more than 46,000 laws and statutes that hinder our 
success, including access to gainful employment.
    The Fair Chance to Compete for Jobs Act is a critical step 
toward eliminating discriminatory barriers. By codifying 
important legal protections, you will provide millions of 
people a fair chance to compete for employment in the Federal 
Government.
    By delaying any discussions of a person's criminal history 
record until a conditional offer of employment is extended, we 
allow all individuals to compete for the positions based on 
their talent and skills.
    To date, 33 states and more than 150 municipalities have 
already enacted these laws. Now Congress can join their ranks 
and quicken the elimination of these harmful, discriminatory 
practice that continue to ruin millions of lives.
    A growing body of evidence, coupled with the bipartisan of 
the Ban the Box policies throughout the country attest to the 
effectiveness of Fair Chance hiring policies. My story and my 
voice speaks to the depth of the problem and humanizes the pain 
that millions of Americans face.
    On August 3, 2011, I was released from Alderson Federal 
Prison Camp. I had imagined this day for the entire 70 months 
of my Federal prison sentence as a first-time, white-collar, 
nonviolent person. I went to prison at the age of 44 years old. 
With more than 20 years of professional work experience that 
included an H.R. background as well as social entrepreneurship, 
I was confident that I could return home and be a valuable 
asset in the workplace again. Yet, all of this did not take 
away from the fact that as a former H.R. professional, I was 
familiar with the training that often leads to immediate 
disqualification of anyone with a criminal record if that 
information is readily available.
    I know that meaningful work brings dignity to one's life. 
It was with this knowledge that prior to leaving prison, I 
began reaching out to my network for a job. A former colleague 
hired me. I was able to start working days after my release 
from prison.
    A year later, I was searching for greater meaning to my own 
prison journey. I wanted to launch a nonprofit alongside my 
daughter that would help people with criminal records pursue 
entrepreneurship as a means to become self-sufficient. I looked 
to my professional network for a part-time job that would allow 
me the flexibility to start a nonprofit.
    I was induced to an opening found online by a friend. 
However this time, I did not have an introduction into the 
company. After my initial read, I knew I was qualified for the 
position, and I began applying online. I put my name, my 
address, my phone number, and other very basic information into 
the system. And then the question appeared, ``Have you ever 
been convicted of a crime?'' I took a deep breath, and I said, 
``yes.'' I hit enter, and I will never forget what happened. 
The screen went black and a message appeared, ``Something you 
said disqualified you for this job.''
    The answer was glaring. It was not my name or my address. 
It was the fact that I had said yes. I was disqualified for the 
opportunity before I even had an opportunity to apply.
    I do not believe I will ever forget that experience. At 
that moment, I became aware of the level of discrimination that 
I could face for the rest of my life when applying for a job.
    There is nothing on its own that will alleviate the 
centuries of criminalization, but enactment of the Fair Chance 
to Compete for Jobs Act offers a starting point. Removing this 
box does not ensure that every person with a criminal history 
will get a job. But it will give those who apply a fair chance.
    I urge this committee and Congress to pass the Fair Chance 
to Compete for Jobs Act. Millions of Americans and their 
families are counting on you. I also believe, just knowing you 
have a fair chance to employment is essential to the success of 
reintegration and will reduce recidivism.
    Thank you for this opportunity to testify.
    Mr. Raskin. Ms. Hodge, thank you very much for your 
testimony. And I would like to thank both of the witnesses for 
their testimony today. And I am going to pass myself. So I am 
eager to get questions from all of the members, and I turn it 
now over to the Ranking Member, Mr. Roy, and I just learned 
from a friend of yours that you were actually born in Bethesda, 
Maryland.
    Mr. Roy. I did not campaign on that fact.
    Mr. Raskin. So--well, you are always welcome. So all is 
forgiven. Come on home, Mr. Roy. All right, Mr. Roy.
    Mr. Roy. Happy to go, actually the chairman wants our side 
to go ahead and go first.
    Mr. Raskin. No please, please. I am eager to get to the----
    Mr. Roy. I will yield to the gentleman from Kentucky. I 
believe he has a question.
    Mr. Massie. I have several questions here today. So you 
announced an impressive array of states that have implemented 
Ban the Box in their state legislatures. Do we have enough of a 
record yet to know whether this policy works or does not work, 
and if there are ill effects? What kind of record do these 
states have that have done it long enough to have some data?
    Ms. Harris. Well there is a lot of research out there 
actually--to your point--the states need to be passing better 
data collection bills, and we are working on that, too. But 
there is a lot of data that shows the connection between having 
a job and recidivism rates.
    And I believe some of that has been referenced in the 
testimony from our friends at Freedom Works that was submitted 
into the record. And then also from the Leadership Conference 
on Civil and Human Rights. But basically, a job is the greatest 
deterrent to returning to a life of crime.
    And so, you know, to us, to our organization and the groups 
from the far left to far right that support this policy, it is 
not just about providing second chances, which is great. It is 
not just about ensuring that employers can find good workers. 
It is also about ensuring public safety, which you cannot put a 
price on, so.
    Mr. Massie. How do you get over the fear that, obviously, 
employers would have that if they hire somebody with a criminal 
background and they have not done their due diligence and then 
something bad happens related to that criminal background that 
they would be liable for the actions of that employee or that 
their hiring process would be, you know, looked at in a bad way 
by a jury?
    Ms. Harris. Well I can tell you we do not hear that, again, 
from employers at all. In fact, again, it is a desperation for 
workers that we hear. That is why the Homebuilders Association, 
The automobile manufacturers and so many others have joined in 
the fight for criminal justice reform, because they simply 
cannot find workers.
    I will tell you that my home state of Kentucky is moving 
forward on an expungement bill today that can address some of 
those concerns employers have, and I would sure love to see 
that happen at the Federal level as well.
    Mr. Massie. Let us see, I think it was Mr. Roy brought up 
the point, what was your point, Mr. Roy, on the----
    Mr. Roy. I am sure it was a really good point.
    Mr. Massie. Yes, I am trying to remember what it was. Oh, 
what about, and this is my concern, too, if people are not 
allowed to ask the question about prior criminal conviction, 
there is a concern that they may replace that question in their 
mind with some indication, maybe race of the applicant. And 
that, this, you know, people have objected that maybe this 
could result in more bias in the hiring process if we do that.
    Now, I do not personally subscribe to that. Like I do not 
know if the data shows that, but what do you say when you are 
asked that question?
    Ms. Harris. Again, I defer to my good friend, Ms. Hodge to 
her organization JustLeadershipUSA. Also to great leaders like 
Chairman Cummings and also the Leadership Conference on Civil 
and Human Rights.
    Mr. Massie. Let me ask you this----
    Ms. Harris. I was going to say----
    Mr. Massie. If you will defer to Ms. Hodge, do you have 
that concern that somebody who is not allowed to ask about 
their criminal record, may instead, substitute their own 
personal biases in that application process? And thereby, 
result in more discrimination?
    Ms. Hodge. That is not a concern of individuals who have 
arrest or conviction records. The concern that we have is just 
an opportunity to compete.
    The example that I gave of applying for an opportunity, I 
did not have an opportunity to even apply for that particular 
job. So in this case, what we are looking for is just a 
fairness in an application process. Between eight and nine 
employers run criminal background checks. And so, we are not 
trying to hide information. We just want to get a little bit 
further in the process so that we have an opportunity to be 
seen and to state our case of who we are in this moment.
    Mr. Massie. To be clear, I support this legislation. I 
think it is great idea. I think that the concerns need to be 
addressed. That we have to have answers to these, because when 
this ultimately does come for a vote, we are going to have to 
debate this on the floor. So I am glad to hear your testimony 
here today. I think it does support the fact that we need this 
bill and that taxpayers would benefit.
    And it is not just about benefiting the people who are 
applying for the jobs. It is that taxpayers actually benefit 
from the resources that those people can bring to the job that 
are being denied right now because of the box that they have to 
check. So I yield back my time, Mr. Chairman.
    Mr. Raskin. Thank you very much. Okay, before I yield to 
the Chair of Government Operations, Mr. Connolly, I just want 
to state for the members, we are following the rule which 
Chairman Cummings has decreed for questioning.
    So we will go to the chairs first, then we will go in order 
of seniority by virtue of the people who were here when the 
gavel came down. So if you want to speak, you have got to be in 
your seat.
    You were. I see you looking at me, Ms. Kelly. But our staff 
has kept careful records. So, you know, do not travel until you 
hear the gavel. That is the rule. I was the first victim of 
this rule. And so, I learned it well. But you actually learn 
something listening to everybody. Mr. Connolly, I come to you.
    Mr. Connolly. Mr. Chairman before you defer to me, and I 
thank you. I just want to make sure, does Mr. Cummings wish to 
go?
    Mr. Cummings. I am going to be very brief.
    Mr. Connolly. Why do we not defer to Mr. Cummings?
    Mr. Raskin. Oh very good, then I come to the chairman. Mr. 
Chairman?
    Mr. Cummings. Ms. Hodge, is it Ms. Hodge?
    First of all, I want to thank you for your journey.
    Ms. Hodge. Thank you.
    Mr. Cummings. I think a lot of people do not realize how 
difficult it is when someone has a record. Some of my 
constituents were telling me during the recent shutdown that 
they finally got a chance to be even more empathetic to folks 
who are going through coming out of prison or with a record, 
because they, themselves were faced with a situation where they 
had no paycheck and could not and did not know when they were 
going to get one. But at least they knew they were going to get 
one.
    On the other hand, we have people with a record who have no 
way out. Am I right?
    Ms. Hodge. Yes sir.
    Mr. Cummings. I cannot hear you.
    Ms. Hodge. Yes sir.
    Mr. Cummings. And so you said you have children?
    Ms. Hodge. I do. I have one daughter, and I have a 
grandchild.
    Mr. Cummings. And tell us a little bit more about your 
journey. And so you came out of prison. You had already made 
preparation to get a job?
    Ms. Hodge. Yes, I did. I was fortunate enough to have a 
strong network, and I took good skill sets with me to prison. 
And as a result of that, I was able to reach into my network. 
And it was people who believed in me and who knew me as a 
person and knew that I would be qualified for opportunities, 
but that is not the case for most people.
    Mr. Cummings. Right. And we have a situation today--I do 
not think people really fully understand the volume of African 
American people who are locked up for offenses like dealing 
with marijuana and things of that nature, nonviolent. While at 
the same time, they can go to Colorado and watch people buying 
the same drug or whatever you want to call it, and it is no big 
deal.
    And the lives--a person who then goes who has that record 
cannot get a job. Family, a lot of times, is not there for 
them. I mean what do they do? What are they supposed to do? I 
mean, do you have any suggestions?
    Ms. Hodge. The best thing that a person can do is----
    Mr. Cummings. Yes.
    Ms. Hodge [continuing]. get a job. Most people who I met in 
prison and individuals who came home right after being 
incarcerated, what they wanted more than anything was to be 
productive members of society. They wanted to have a job. While 
I was imprisoned, women were dreaming of being able to go home, 
walk their children to school, and have jobs. And they wanted 
to be productive. And so, the best thing that individuals can 
do is access jobs. But without a job, then people are returning 
to under-resourced neighborhoods and communities and are 
returning back to what is familiar.
    Mr. Cummings. Now Ms. Harris, this whole question of 
worrying about whether the person--will you be able to trust 
them and all that kind of thing. What we are dealing with is, 
this person comes in, maybe does an interview and you are 
trying to just make sure that they get maybe past the initial 
steps. Is that right? Am I missing it?
    Ms. Harris. Absolutely and ultimately once a conditional 
offer is made, then there can be discussion of criminal 
history. But I would like to say, and of course, this is 
anecdotal. I mean, from the employers that we talk to, and we 
talk to quite a lot of them, who hire individuals with records, 
they say that these individuals are their very best employees, 
and they are so grateful for these jobs.
    They are the first to be at the door in the morning and 
then they are the last to leave at night. And so, again, all we 
ever hear from employers who have implemented Fair Chance 
hiring practices is just how well it is working for them.
    Mr. Cummings. I have found that just to be the same thing. 
I found that to be the case. As I close, and at Johns Hopkins, 
I remember, not long ago, I went--drove up there and these guys 
jumped out and they were like the Secret Service.
    [Laughter.]
    Mr. Cummings. No, seriously, seriously. I was very 
impressed. They were dressed in bowties, and they were sharp. 
They had little wires in their ears and stuff. And so I said, 
``Who are these guys? They are so polite.'' And come to find 
out, all of them were former inmates. They had formed a firm 
and had been hired by, probably the No. 1 hospital in the 
world, Johns Hopkins. So I just--the idea is to give people a 
chance so that they can then go forward and do for their 
families.
    Mr. Chairman, I thank you for your courtesy, and I yield 
back.
    Mr. Raskin. Thank you very much, Mr. Chairman. I come now 
to the gentleman from Georgia, Mr. Hice.
    Mr. Hice. Thank you very much, Mr. Chairman and I, likewise 
appreciate this hearing and the heart of everyone up here. And 
to both of you, thank you for your work, and we are grateful 
for your presence.
    Ms. Harris, I appreciate you giving a shout-out to Georgia 
and what has been done there. I know there are a lot of other 
states that are doing great work in this area as well. But 
Governor Deal and my colleague, Doug Collins have been 
tremendous leaders, and it is an honor to work with them.
    We have got some 70 million individuals that have a 
criminal record in this country. That is an enormous amount, 
even compared to other countries. And, you know, obviously this 
is something that we have got to address, and so I am glad that 
we are.
    The question, obviously, is these people need some sort of 
opportunity after they have served their time so they do not go 
back into the same cycle. And I know that is why we are all 
here. And from studies that I have seen, those who are released 
from prison who stay unemployed are three times more likely to 
return than are those who are making even $10 an hour. So the 
opportunity here is great.
    One of my concerns has been brought up, and I want to bring 
it back up. And if both of you could kind of answer quickly. I 
do not have too many questions, but I want to get both of your 
responses.
    Since the Office of Personnel Management has implemented 
the Ban the Box policy, the question is, out of the gate, have 
we seen an increase of hiring people with convictions? Either 
one of you, both of you.
    Ms. Harris. I can just share, that again, there is a lot of 
data that is still missing from states.
    Mr. Hice. So we do not know?
    Ms. Harris. But I will tell you this. I will tell you this. 
I have experience in hiring in state government, and here is 
the way it works. You know, we open the floodgates----
    Mr. Hice. I want to go quickly, because I have got some 
things--my question is, have we seen, definitely, an increase 
in hiring people with convictions? Or do we not know?
    Ms. Harris. I have not seen data that shows that.
    Mr. Hice. Okay, Ms. Hodge?
    Ms. Hodge. I have not seen data. I know that we have 
reported that in the District of Columbia employment for 
individuals with records has gone up by 33 percent.
    Mr. Hice. Okay and that is a fantastic number, my friend. 
But Chairman Connolly mentioned that, and I think that is 
fantastic. Great record. I would love to see that across the 
board, but at this point, from the GAO, we do not have that 
kind of information.
    The study came out from Professor Jennifer Doleac, whatever 
her name is. I hope I pronounced that properly. Are you 
familiar with that study reference? You are?
    Ms. Harris. Yes.
    Mr. Hice. Okay, does it concern you?
    Ms. Harris. No.
    Mr. Hice. Okay, does it concern you?
    Ms. Hodge. No, it does not.
    Mr. Hice. Why not?
    Ms. Hodge. The crux of the study talks about Ban the Box is 
not a cure-all, and we agree, that it is not a cure-all. It is 
a good first step when we are looking at employment. And the 
study looks at discrimination and the study focused on African 
American men as a whole around employment opportunities.
    Mr. Hice. Okay, the question that does concern me is again 
that we do not have any evidence, no empirical evidence that 
Ban the Box legislation increases employment. That does kind of 
concern me. That was the result of the study. Let me ask you 
this. Moving on from there, another underlying issue that I 
think we are all trying to tackle is employers seemingly 
reluctant to hire people. Does this legislation change that at 
all?
    Ms. Harris. Well no, if we are talking about private 
employers, there is no private employer mandate in this.
    Mr. Hice. All right, that was going to be my next step.
    Ms. Harris. Sure. Yes but, of course, Mark Holden at Koch 
Industries talks about this all the time. I mean, if you do not 
want to adhere to this policy, then do not do business with the 
government and provide services that are paid for by the 
taxpayers. And so, I think it is quite simple.
    Mr. Hice. Okay. Ms. Hodge, you want to add anything to 
that?
    Ms. Hodge. No, I agree with everything that Ms. Harris has 
indicated.
    Mr. Hice. Okay, let me ask one last question, and we may 
not have an answer to this. We know unemployment, right now, is 
about 3.8 percent. Do we have any records as to how many of 
that unemployment are individuals with records?
    Ms. Harris. I am not aware of that number, but I can 
certainly----
    Mr. Hice. Is there any way we can get an answer to that? I 
would really be curious to know how many among our current 
unemployed in this country have records.
    Ms. Hodge. Probably the National Employment Law Project is 
the leader of data concerning unemployment for individuals with 
criminal histories. They have conducted long-standing studies 
and are the leaders of Ban the Box.
    Mr. Hice. Would you try to get that for us?
    Ms. Hodge. Yes sir, we will.
    Mr. Hice. Thank you very much.
    Mr. Raskin. The gentleman's time has expired. Thank you 
very much. Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman. And welcome, to our 
panel. Ms. Hodge, you may know this, but as I understand it, an 
estimate one in three adults in America has a criminal record 
that will show up in a routine background check. Is that your 
understanding?
    Ms. Hodge. Yes sir.
    Mr. Connolly. That is astounding.
    Ms. Hodge. It is.
    Mr. Connolly. And if they all go through the experience you 
did, in that interview, where the screen goes black. You said 
something that disqualified you--that disqualifies potentially 
a third of the entire American work force--adult work force.
    Ms. Hodge. Yes sir.
    Mr. Connolly. Astounding. Ms. Harris, there is now guidance 
with respect to formerly incarcerated individuals by OPM for 
those seeking direct employment with the Federal Government. Is 
that correct?
    Ms. Harris. Yes sir.
    Mr. Connolly. And has it had a positive impact, from your 
point of view?
    Ms. Harris. Yes, there is positive data that we have seen. 
And I also want to share, you all, this is some good common 
sense. And I can tell you that as----
    Mr. Connolly. My time, Ms. Harris. Do not jump ahead.
    Mr. Meadows. But I like her accent, Mr. Connolly.
    [Laughter.]
    Mr. Connolly. Great accent and great point you are making, 
but hold on. So that guidance which is working pretty well on 
the direct Federal employment side. Is that guidance extended 
to those who are seeking to be Federal contract employees? 
Working for a private contractor with an account with the 
Federal Government?
    Ms. Harris. I am not aware of that. I do not think so.
    Mr. Connolly. Perhaps the answer is no?
    Ms. Harris. I am not quite sure. I am not quite sure.
    Mr. Connolly. So it does not apply. And here is the thing. 
So we have a total Federal work force of about nine million. Of 
which, 40 percent is private contract employees, 40 percent. So 
if my math is correct, that means we have got 5.4 direct 
Federal hires and 3.6 million contract hires.
    And in many cases, those contract employees are embedded 
with the Federal employees. So at the same agency in the same 
room, same office, you know, sharing cubicles, we got a Federal 
employee, we got a contract employee doing the same work. But 
they are not treated the same way. So when there is a shutdown, 
the Federal employee might be reimbursed--is going to be 
reimbursed, but the contract employee is not.
    And likewise in the case of looking at former incarceration 
as a factor of employment we are providing relief at the 
Federal employment level but not necessarily at the contract 
level. And different companies may have different policies. And 
I assume from your point of view that would present a problem 
if we have sort of a potpourri of approaches as opposed to a 
uniform, standard policy.
    Ms. Harris. Not if we pass this legislation.
    Mr. Connolly. What is that?
    Ms. Harris. We will not have the problem.
    Mr. Connolly. You are jumping ahead again, Ms. Harris. We 
are trying to work through the case, here. But okay. So maybe 
legislation is necessary, you are saying?
    Ms. Harris. It is necessary, yes.
    Mr. Connolly. It is necessary, and are we not lucky that 
Chairman Cummings has a bill that we can all consider getting 
on the help us with this. And that bill, inter alia, would 
include mandating agencies to keep data. Is that correct, Ms. 
Hodge?
    Ms. Hodge. Yes.
    Mr. Connolly. And that data could then give us sort of a 
statistical base for GAO and others from which, Mr. Hice's 
question, would have some statistics that would be helpful in 
guiding us in terms of how policies are working or how they are 
not. And to incentivize agencies to do the right thing that Ms. 
Harris is advocating for and so are you.
    Ms. Hodge. Yes sir.
    Mr. Connolly. Are there states, you know, you went through 
a long list of states, thank you, Ms. Harris, but is there sort 
of a benchmark where it is really working and working well and 
we can look to and go, ``There is the model.''
    Ms. Harris. We have literally never had a state, certainly 
not the ones that we have been a part of helping to implement 
the Ban the Box policy and that would be, again, Louisiana, 
Oklahoma, Indiana, Kentucky. We have literally never had any 
policymaker from the far left to the far right complain about 
implementing this policy. And in fact, it has been just the 
opposite, so. I will say, though, there is dearth of data that 
is available in the states. And sometimes that is what is 
difficult in determining, you know, how far reaching this 
policy is.
    Mr. Connolly. I just want to say, in closing, and thank you 
both. You know, this is sort of an across-the-board thing we 
have to look at. Policies of incarceration, Mr. Cummings has 
talked about that already, is just inherently unequal. And not 
a fair system of justice. Then the consequences of having been 
incarcerated, including the restoration of voting rights.
    In my state, it required the scent of the Governor, because 
the legislature would not do it. Physically designed the 
restoration for 170,000 individuals, one by one. That is what 
it took. And now we are looking at hiring practices. So we have 
got a long way to go in terms of making sure justice is blind. 
And that once somebody has served their term, they have 
opportunities in this society.
    Thank you, Mr. Chairman.
    Mr. Raskin. And thank you, Chairman Connolly. I come now to 
the gentleman from South Carolina, Mr. Norman.
    Mr. Norman. Thank you all for appearing. Let me give you a 
different point of view. I am from the private sector. We are 
contracting company. We have done government work, but we 
mainly do private work now. And as I understand, Ban the Box 
would not run--would not be required--for private work.
    We have done a lot of hiring with people who have been 
incarcerated. One of my best carpenters was a person who had a 
drinking problem. He killed a 13-year-old from drunk driving, 
not once, but twice. And he told us. Had I not been able to 
find out, no, I would not have hired him. The fact that I did 
find out gave me that lever to, if he ever got off the wagon, I 
would know it.
    Second, I hired another carpenter who had been in prison 
for 30 years, drug abuse. Great worker for a while. I hired 
him. He told me. And most of the workers who had criminal 
records were eager to tell us, for some reason. He went back to 
cocaine. I could sense it, because we could watch his change in 
personality.
    The third person I had, had a cocaine problem. Had been in 
and out of prison. Got back on it. I called him in. I said, ``I 
can't keep you on.'' He said, ``Why?'' I said, ``Let me ask 
you. You're the best motor grader driver I have, any piece of 
equipment. How is that going to protect that family when you 
get high and run off the road?'' He is now at a Federal job 
with waving the flag on the highway, which is the only Federal 
job he could get, waving a job. I was paying him $30 an hour. 
He is down to $12 now.
    Why I would take--Ms. Hodge, help me understand. I would 
take the tact as almost discriminatory against that person not 
to know the background, because if the person I just described 
was able to go to a Federal job and get on a motor grader or a 
D7 tractor and run over through a house, tell me what I am 
missing.
    Ms. Hodge. Congressman, first thank you for those stories. 
The process is not to keep the information from an employer. It 
is just to delay it a little bit further in the process. In 
addition, again, eight out of nine employers run criminal 
background checks. And so this information will be disclosed. I 
think the point that you were making where you had an 
opportunity to meet the individuals. They were able to tell you 
their stories, to tell you about their mistakes, and you had an 
opportunity after having that human connection, to make a 
decision as an employer.
    I think that is what we want to continue to happen. We are 
not looking for this information to be hidden. We want 
employers to have the information, a hundred percent, and I 
think that is exactly what this bill will do. It is just a 
little bit further in the process.
    Mr. Norman. But does it not let that person down who has 
been incarcerated, if he is--and I guess what you are saying 
is--once they fill that application out online, if you see the 
criminal history, it precludes them from taking the next step. 
I am just saying from a private individual, the opposite would 
be true to me, because we have experienced it. We have lived 
it.
    And particularly, if you take a Federal job, it is even 
more important to know that up front. And then to request an 
interview with that government employee. There is a lot of 
Federal jobs involve childcare. And to have somebody 
potentially watching your children that you do not know about, 
the history of it, is a drawback to the person as well as to 
the Federal employee that is hiring them, because they can help 
them.
    In each one of our cases, we were able to help them. And 
more importantly, spot the signs when they either go back or 
cannot function, which helped that person, because they knew we 
were looking. I yield back.
    Mr. Raskin. Thank you very much. Is Ms. Kelly in the--oh, 
there she is. The gentlelady from Illinois.
    Ms. Kelly. Thank you, Mr. Chairs and ranking members. There 
has been significant action, you know, through many states that 
you have named on Ban the Box, and I am proud that my state is 
one of them. Can you just share some of the results on the 
state level, from the implementation of this law, and it can be 
either one of you.
    Ms. Harris. Well if I could, I was just going to share from 
my own experience how this worked in government hiring. I was 
both a chief of staff, general counsel, and what would end up 
happening is we used a criminal history as a filter. So if you 
got hundreds of resumes, and again, so many of them were not 
qualified for positions. But next to geography, filtering by 
criminal history was the only way to get this down, you know, 
get the applications down to a couple of dozen applications.
    And so, of course, what ended up happening is then these 
individuals were not the most qualified. They were not the most 
talented. And so, then we had to go back into the application 
pool. And so, I would say the only way, the only way, to 
safeguard individuals with records from being discriminated 
against in the hiring process and to ensure that we are hiring 
the most talented, the most qualified people to do jobs that 
are paid for by the taxpayers is to implement Ban the Box.
    Ms. Kelly. Do you have any?
    Ms. Hodge. I agree with everything that Ms. Harris said. I 
was once an H.R. professional prior to incarceration. And I was 
mandated by my employer to dwindle down the application pool, 
often to 10 or 20, something that was manageable. We looked for 
every possible way to discriminate. By having the information 
ahead of time, it was used.
    Ms. Kelly. What would you say when people get out of jail? 
Like you said, you had skills before you went into jail that 
you could use when you got out, but what about people that go 
into the system, into prison, and they do not have skills. What 
do you think needs to be done in prison? What skills do you 
think need to be taught or trained, so people can be prepared 
when they come out? How do you figure that out?
    Ms. Hodge. I think that prisons, to some degree, have to 
keep pace with what is happening on the outside of the prison 
walls. I am a big advocate for technology, because we live in a 
digitally connected world. And it is important that people know 
how to use technology. But in addition to that, just jobs that 
are jobs of the future. So that individuals can come home and 
gain access.
    Often when people are in prison, they are given trainings 
for jobs that no longer exist when you come home. And that is 
very disheartening, because individuals are believing when they 
come home, that they will be able to have access to certain 
employment opportunities.
    Some of the statutes that we have talked about keep an 
individual from being able to apply. Instances such as, you 
might get a barber's license while you are incarcerated. And in 
certain jurisdictions, when you come home, because you have a 
criminal record, you cannot be a barber.
    Ms. Kelly. Also, we would all agree that the affects, you 
know, criminal justice, employment rates, the economy, and 
crime rates. But what would you say are--we are talking about 
the good things, but some of the negatives--what do you think 
needs to be improved? Like my colleague, Mr. Norman talked 
about his experiences. What are things that you think need to 
be improved?
    Ms. Harris. Oh where to start?
    [Laughter.]
    Ms. Harris. Certainly, I mean, I mentioned earlier that 
there needs to be a significant vehicle for expungement. That 
is happening all over the country. And in fact, in Kentucky, we 
have got a felony expungement bill. And the bill that would 
pass today, hopefully passes today, would take a waiting period 
from 10 years to 5 years, crime-free waiting period.
    So I am hopeful that we will move forward with expungement. 
Look, there is still so much that we have to do on sentencing 
reform, and I am hopeful that we can have a broader 
conversation about that as well.
    Ms. Hodge. I agree with everything that was said. And then 
also I reiterate that most employers actually run criminal 
background checks. And we do not want to hide information. We 
just want to be able to have the human contact, the human 
experience to be able to advocate and tell our stories, to tell 
individuals who we are, and to just receive the job based upon 
our talent and experience, or not.
    Ms. Kelly. And then, just out of curiosity, do you go to 
business and tell your story and----
    Ms. Hodge. I do, and I am an advocate in this country. I do 
go and talk. I am currently working with banks right now who 
are interested in finding ways to give loans to individuals who 
have arrest or conviction records, because they are turning to 
entrepreneurship out of necessity.
    Ms. Kelly. Thank you very much. I yield back.
    Ms. Harris. And what foolish person would not hire her?
    Mr. Raskin. Thank you very much. We come now to the 
gentleman from Wisconsin, Mr. Grothman.
    Mr. Grothman. Well, I think this committee is largely a 
lovefest and, perhaps, it should be. It certainly is about as 
well-intentioned a bill as you are ever going to find. Before 
we had these committees, you know, hardworking staff put 
together stuff for us. Stuff that sometimes does not come out 
in the testimony immediately. And one thing, just struck my eye 
a little bit, here. I mean, one of the things they say is, 
``that these bills may be counterproductive.'' And they mention 
a study here, I do not know whether any other legislators 
brought it up. Joint study by a Michigan Law professor and a 
professor of who knows what, some gal from Rutgers. And they 
found unintended consequences. They felt that when they did the 
Ban the Box--or before Ban the Box, there was some race 
discrimination. That White people were seven times more likely 
to get callbacks than their Black counterparts. And this was 
based on made-up resumes.
    They said after they put Ban the Box in there, White people 
got 45 percent more callbacks. So in other words, it kind of 
Ban the Box, really, really punished Black people. Are you 
familiar with that study, and do you have like a counter to it?
    Ms. Harris. Well I was going to say, still, I guess I am a 
little confused. I mean, yes, I am familiar with the study. But 
again, in my own experience in hiring in government, really the 
only way that you can consider individuals with records, is 
again, to implement Ban the Box, because so many government 
agencies use the criminal history as a filter.
    So--and I am unclear--I know, you know, it has been said 
several times that then, you know, a question about criminal 
history will then be replaced by a question about race or--and 
that was just never my experience. And again, the only way, 
again, to ensure that we are giving opportunities to people 
with records is to ensure that they cannot be discriminated 
against in the beginning of the hiring process.
    Mr. Grothman. Well these are kind of dramatic numbers. I 
mean Ron Johnson's my buddy. I will vote for his bill, but 
these are kind of huge numbers. The difference between 7 
percent and 45 percent. It is kind of devastating, I think for 
Black people and the University of Michigan, that is a top-
flight law school. I would not think this Sonja Starr is, you 
know, incompetent person. Really, one of the best law schools 
in the country.
    And I am just saying, you can read the little guidance we 
have here, gives the reasons why they think this would, 
perhaps, make sense. But, I mean, jumping from 7 percent more 
likely to be called back to 45 percent, is a big number, and I 
will vote for the bill if they bring it up, but I would hope 
the committee chair spends some time looking at that number and 
makes sure that by passing this bill, we do not make things a 
lot worse. Because maybe we have to bring Sonja Starr or Amanda 
Agan in here and find out why, but I assume they are sharp 
people, and they are saying this bill is going to make things a 
lot worse. So, you know, so I will vote for it. And it 
certainly feels good to vote for it, but the studies ought to 
be kind of analyzed maybe a little more as well.
    And before I get myself in any trouble, I will pass things 
back to the chairman.
    Mr. Raskin. Mr. Grothman, thank you very much. I come now 
to Ms. Ocasio-Cortez.
    Ms. Ocasio-Cortez. Thank you, Mr. Chair. Just to kind of 
pick up on that prior note about, you know, race-based 
discrimination and employment. Banning the box is not 
legislation to end racism in America. Would you say that is 
correct, Ms. Harris and Ms. Hodge?
    Ms. Harris. I would.
    Ms. Hodge. Absolutely.
    Ms. Ocasio-Cortez. So we have a lot more work to do when it 
comes to racism and employment discrimination beyond just Ban 
the Box, correct?
    Ms. Hodge. Yes.
    Ms. Ocasio-Cortez. And I would recommend that if we are 
truly concerned about race-based, and other forms of 
discrimination in the employment act, I would be happy work 
with my colleagues across the aisle to strengthen and expand 
Title 7 of the Civil Rights Act passed in 1964. So I think, we 
can table that conversation, because I agree, that there is a 
lot of work that needs to be done.
    Ms. Hodge, you mentioned earlier that a person should not 
be judged by the worst thing they have ever done, correct?
    Ms. Hodge. Yes.
    Ms. Ocasio-Cortez. I agree and especially when they have 
paid their debt to society. And I think that something that is 
not discussed enough is that Congress has done something wrong. 
And we have a debt to society, because the war on drugs is 
widely recognized as a horrific and non-evidence-based policy 
that created an enormous amount of social damage in the United 
states.
    The criminalization of marijuana and the punitive 
sentencing of nonviolent people is wrong. Zero tolerance laws 
were wrong. Blocking harm reduction policies was wrong. Minimum 
sentencing laws were wrong. And even against all advisement 
from commissions and nonprofits and experts and secretaries in 
both administrations, Congresses of both parties did the wrong 
thing. We have a debt to society that we must repay.
    And my question is, do you think banning the box is part of 
the work that we have to do to repay our debt to society?
    Ms. Hodge. I agree that banning the box is a step, and yes, 
it is something that Congress can do and join the 33 states in 
over 150 jurisdictions that have already done so.
    Ms. Ocasio-Cortez. Thank you. One of the things that we 
learned is that one of the biggest aspects of preventing 
recidivism as you both have talked about, preventing people 
recommitting crimes and going back to jail, is employment and 
economic opportunity. Is that correct?
    Ms. Hodge. Yes.
    Ms. Ocasio-Cortez. So I am interested as well, it is not 
just any economic opportunity but the dignity of work and how 
dignified a job is that can prevent you from--that can keep a 
person in society. So out of all the job programs that you have 
seen that formerly incarcerated people may apply to, what tends 
to be the most common line of work that they enter? What kind 
of jobs are we talking about?
    Ms. Hodge. Most people enter into the restaurant and 
hospitality, construction, very baseline, entry-level positions 
throughout the country.
    Ms. Ocasio-Cortez. And so you would say that a lot of jobs 
that we are talking about are in the service sector?
    Ms. Hodge. Yes.
    Ms. Ocasio-Cortez. Are there any that are typically offered 
more technical jobs?
    Ms. Hodge. I am sorry, say that one more time.
    Ms. Ocasio-Cortez. Are folks offered more technical jobs 
ever, or do you see--like, does it tend to be more complicated 
work beyond that?
    Ms. Hodge. No.
    Ms. Ocasio-Cortez. So we are talking about a pretty basic 
level of work, and I think that we should also be expanding 
this conversation so that we are not just allowing or creating 
opportunities for the formerly incarcerated to have only 
minimum wage jobs. But recognize the unlimited potential of all 
people. And for that reason, Mr. Chair, I would like to see 
unanimous consent to submit to the record something for 
consideration, A Bill of Rights for Criminalized Workers, just 
released by JustLeadershipUSA.
    Mr. Raskin. Without objection.
    [The information referred to follows:]
    Ms. Ocasio-Cortez. And last but not least, how do you think 
the Fair Chance Act can work toward the dignity of work for all 
Americans? And, Ms. Harris, you are free to enter as well.
    Ms. Hodge. I will go quickly. I think we are at a time in 
the country where, with First Step Act passing, that more and 
more Americans are talking about criminal justice and criminal 
justice reform. I believe that Congress passing this bill will 
continue that conversation. It will allow more people to begin 
to understand what is going on with a third of our country, 
their fellow citizens, people who their children go to school 
with. So it is a good first step.
    Ms. Ocasio-Cortez. Thank you. Ms. Harris, anything?
    Ms. Harris. I agree with Ms. Hodge.
    Ms. Ocasio-Cortez. Thank you very much.
    Mr. Raskin. The gentlelady yields back. Now I am calling on 
our colleague from West Virginia, Mr. Miller.
    Ms. Miller, forgive me.
    Mrs. Miller. Thank you, Mr. Chairman. Thank you ranking 
member chairman. And thank you both for being here today.
    We have learned about the Fair Chance Act. Legislation that 
seeks to ban the box and give previous criminal offenders the 
opportunity to interview for positions with Federal agencies 
and contractors. I strongly believe in giving people a second 
chance.
    During my time in the West Virginia legislature, I was a 
proponent for justice reinvestment and fought for years to 
ensure that it was implemented. The opioid epidemic in my state 
has created thousands of nonviolent offenders who, once they 
are clean, need assistance and the tools to reenter their 
community.
    Reducing recidivism is only possible if we give people 
those tools and the opportunity to succeed. To accomplish this, 
we should focus on promoting exoffenders through rehabilitative 
certifications and connecting them with the many jobs that seek 
to hire exoffenders.
    Employment is one of the most important factors in reducing 
recidivism. Although the Fair Chance Act is written with good 
intentions, I think a GAO study on the effects of the policy is 
needed before we can move forward in good faith.
    Ms. Harris, what protections are put in place for Federal 
contractors who hire those with a criminal history? Giving 
exoffenders a second chance. Is there anything in the Fair 
Chance Act that protects contractors from increased liability, 
insurance, or other issues that might arise from hiring 
exoffenders?
    Ms. Harris. Again, I think the premise of the question is a 
little bit troubling. We have not seen these issues across the 
country with any of the employers that we have worked with who 
have hired exoffenders. So when we talk about liability issues, 
it just has been very rare that employers have had a negative 
experience with Fair Chance hiring practices or with hiring 
formerly incarcerated individuals.
    Ms. Hodge. I agree.
    Mrs. Miller. Okay, is there evidence that Ban the Box 
legislation actually helps those with a criminal history join 
the work force, or do hiring managers use other factors to weed 
out those exoffenders, such as race and gaps in employment?
    Ms. Harris. I will just refer to my previous testimony on 
my experience in hiring in government employment. And I also 
wanted to note a statistic, sort of coming at the question from 
a different direction.
    I know we are talking about the impact of Ban the Box, but 
you know, the impact of not giving employment opportunities to 
individuals with records, and I am referring to a letter that 
should be in the record from the Leadership Conference on Civil 
and Human Rights, the National Employment Law Project, and the 
ACLU. And I am a conservative----
    Mrs. Miller. Make sure you are answering my question, 
please.
    Ms. Harris. Yes ma'am, and it states, ``The Economist 
estimated that the U.S. GDP was reduced by as much as $78 
billion in 2014 alone, due to the poor prospects, poor job 
prospects, rather, of formerly incarcerated individuals.'' So 
that is coming at your question in a bit of a different 
direction, but we are certainly seeing a very negative impact 
on our economy.
    Mrs. Miller. I just want to make sure that we are not using 
it as a tool to weed out people, as opposed to hiring them.
    Ms. Harris. No, in fact, it weeds out people when they are 
filtered by criminal history in the hiring process.
    Mrs. Miller. Ms. Hodge, are there limits on Ban the Box 
legislation, so that perpetrators of violent crimes are not 
employed by the Federal Government?
    Ms. Hodge. Not to my knowledge. But there are--I think I 
have to go back to one thing, which is, we are not forcing 
anyone to hire. This is really about when is this information 
disclosed? And employers can continue with their traditional 
practices of running background checks and gathering all the 
information that they need to make a decision.
    So this is not forcing anyone to hire. It is just when will 
this information be disclosed?
    Mrs. Miller. Considering my history in working very hard on 
this subject, I just want to make sure that whatever 
legislation is put forward does not actually have the reverse 
effect on what we are trying to do, which is give people tools 
to become good citizens and feel good about themselves and be 
productive. Thank you.
    Ms. Hodge. Thank you.
    Mr. Raskin. Next is----
    Mrs. Miller. Yield back.
    Mr. Raskin [continuing]. the gentlelady from Massachusetts, 
Ms. Pressley.
    Ms. Pressley. Thank you, Mr. Chairman and thank you, Ms. 
Hodge for your informative and compelling testimony. Thank you 
for bringing your lived experiences to this. I share your 
belief that the people closest to the pain should be driving 
and informing the solutions and the policymaking. So we thank 
you for being here.
    In 2000--and I do want to say that I very much appreciate 
the organization mission launch on your website. It says, 
``People do not go to prison, families do.'' And that is really 
what I want to pick up on. My father was in and out of the 
criminal justice system because of crimes he committed while 
battling a substance abuse disorder.
    I know, intimately, the destabilization, the stigma, the 
social shame and isolation of having a loved one who is 
incarcerated. I do want to say, my father has gone on to do 
incredible things. He obtained two advanced degrees and went on 
to be a professor of journalism and a published author. So I am 
very proud of him. But needless to say, while he was in the 
throes of that addiction, in and out of the criminal justice 
system, our entire family was serving with him.
    In 2015, the Center for American Progress released a study 
showing that nearly half of the children in the U.S. have at 
least one parent with a criminal record. And 5.2 million 
children, or one in 14, have a parent who has been in prison.
    In the Massachusetts 7th, which I am fortunate to 
represent, a Boston re-entry study that tracked formerly 
incarcerated men and women, found over half of respondents had 
less than $400 in their pockets upon release from prison. And 
about a third went to unstable or temporary housing. I think 
they represent about 30 percent of our chronically homeless, in 
shelters, transitional housing programs, motels. And fewer than 
half were in paid employment after two months.
    These studies both unearth the scale and scope of 
challenges many children and families face when welcoming a 
parent back home. A criminal record can lead to unemployment 
and underemployment, picking up on the comments of the 
gentlelady from New York, which in turn lead to financial 
instability, eviction, and hunger. Underscoring that 
incarceration and a criminal history is quite literally a 
shared sentence for families.
    Ms. Hodge, in your work with Mission: Launch, what impact, 
specifically, have you seen a criminal record have on the 
families of those who are released from prison? And I also want 
to say, I appreciate your being here, because you are 
diversifying the public narrative of who is incarcerated. There 
are more women incarcerated now than ever before and the 
Massachusetts 7th, we have almost 40 percent of our 
householders, single female headed. So again, if you could 
speak to the impact on family?
    Ms. Hodge. Thank you for that question. I think part of the 
work that I do is a result of the children. I was incarcerated 
with many women who I cannot tell you of the cries and the pain 
that I had to listen to for almost five years of them being 
away from their children. It was at a visiting room, watching 
children play, after reading an article where it said that, ``A 
child who has an incarcerated parent is more likely to go to 
prison themselves,'' and it was after reading that, that I 
personally made a commitment that I wanted to do this work.
    I was fortunate. My daughter was 22 when I went to prison. 
So I took an adult child to prison. But she became committed to 
that as well as we watched the mothers and the children 
reunited, often for just once a year, for a few hours in a 
visiting room.
    Ms. Pressley. And there is so much work to be done around 
maintaining those familial bonds while a loved one is 
incarcerated. Everything from more-affordable phone rates to 
family visiting areas and the like, but a family reunification 
and the stabilization of family is such a critical component of 
successful reentry and reintegration, you would agree?
    Ms. Hodge. Absolutely, yes.
    Ms. Pressley. And so, could you speak to how does this 
employment discrimination and housing discrimination as well, 
how does this affect in the day to day, the functionality of 
the restoration of family?
    Ms. Hodge. Family reunification is extremely important. If 
a parent is unable to take care of their families that plays an 
unnecessary strain. I have engaged with organizations that 
support children and one of the things that they said is that 
it is the most stressful time in the lives of a child when 
their parent comes home. Because it is an unnecessary strain 
for individuals, for parents, who are unable to take care of 
their children, depending on the types of crime, they are 
unable to live with their children. If their children live in 
public housing as well.
    Ms. Pressley. I am just so sorry. As we wrap--do you think 
that social safety set programs should be doing more to support 
the children of incarcerated parents?
    Ms. Hodge. I think our country is safer when we support 
families and we support families being together.
    Ms. Pressley. Thank you so much.
    Ms. Hodge. Thank you.
    Mr. Raskin. Mr. Meadows is up next, the ranking member of 
the Subcommittee of Government Operations.
    Mr. Meadows. Thank you, Mr. Chairman and thank you both for 
your testimony. It has been very illuminating. If you could 
help me understand a little bit. So let us make the assumption, 
I think everybody here makes the assumption, this is going to 
be passed by both chambers, will be signed into law. How will 
it work in the workplace?
    So let us say that you do not have it, you do not disclose 
it up front. You come in for an interview. At what point does 
it get disclosed? So I understand the whole filter, but I also 
can see the negative part, that if it creates a situation where 
you are interviewing somebody and they are nervous that they 
are going to have to disclose this, and if they do not, then 
the employer--having been one--I go, ``Well, why weren't you 
just honest with me, and I check it as a dishonest mark against 
you.'' How does it work in reality?
    Ms. Hodge. I think it works a couple of different ways. But 
in this particular scenario, it is, a person gets to complete 
an application, and an individual criminal history gets to 
persist. They are able to be interviewed by you, and it is----
    Mr. Meadows. And during that interview, do they disclose 
this?
    Ms. Hodge. No. The law that is before you is if there is a 
conditional offer. If you are interested in this person, that 
is when it is disclosed. However, the Ban the Box policies 
throughout the country, there are various versions of them. It 
is why many states and jurisdictions are expanding it. And 
quite frankly, it is a complicated, unnecessarily, complicated 
policy.
    Ms. Harris. Yes, and I would just offer, too, and I think 
this is something that Congressman Norman, I believe, brought 
up. So again, there are a lot of individuals who would tell 
you, or a lot of employers rather, who would tell you that when 
individuals come in who have a criminal record, they are 
actually very quick to share it. Before you even ask, they are 
quick to share it.
    Mr. Meadows. Right.
    Ms. Harris. Because again, they are quite concerned about 
the issue you just raised, about honesty. But this gives them 
an opportunity to talk about their efforts at rehabilitation. 
It also gives you an opportunity to see their job skills and 
qualifications. And again, we are talking about discriminating 
against a third of our country. And we are no longer talking 
about an obscure minority here. This is a third of our country 
that has a criminal record. So I mean, I think it is quite 
concerning that, you know, that we would exclude a third of our 
country from the job pool for government jobs.
    Mr. Meadows. I get that, but I guess here is the concern, 
because I normally would ask, you know, is there anything that 
I ought to know about that might be a concern? In the minute--
if this uses this law--is used as one to say, ``Well I am not 
required to disclose it,'' it can have a complicating factor, 
certainly from an employer standpoint. Do you follow me? So if 
you all can come up with some recommendations on how maybe we 
can look at that. And I am going to yield the balance of my 
time to the gentleman from Kentucky, who Ms. Harris does not 
need a translator for you.
    [Laughter.]
    Mr. Massie. I thank the gentleman from North Carolina. When 
I was a county executive, at Lewis County, the second biggest 
line item in our budget was the jail. The only thing we spent 
more money on was the roads. And so, I spent a lot of time over 
at the jail, and I got to know some of these inmates. And one 
of the most ironic cases was a guy who had been convicted of 
flagrant nonsupport. It is a Class D felony in Kentucky. I 
think he was spending a year in our jail. Okay, we were housing 
state inmates at the time.
    So the reason that is ironic to me is we are depriving him 
of a year of income and the children that he has fathered need 
that income. I am not advocating for a lesser sentence for it, 
but the problem is when he gets out, how is he going to provide 
for those children? So I want to broaden this in the minute 
that I have left. And this is probably a good idea, this bill, 
but what are the other things we can do to make sure that those 
type inmates, when they get out, they can provide for the 
family that they should be supporting? By getting a job. Ms. 
Harris?
    Ms. Harris. Again, and not to be a broken record, but 
expungement. And again, most expungement bills in this country, 
there is a ridiculous waiting period of 10 years. And if you 
live with a criminal record for 10 years, I mean it is just--
expungement almost seems like it really will not do much for 
you.
    But an expungement bill that has a reasonable crime-free 
waiting period of, you know, three to five years, I think could 
do a lot to ensure that individuals can get back on their feet 
and eventually find a well-paying job. But I mean, that is 
where I would like to start at the Federal level, just because 
there is no significant vehicle for it.
    Mr. Massie. Let me give Ms. Hodge a chance to tell me 
something else we could do to make sure people can get a job 
when the get out of jail.
    Ms. Hodge. Actually I was agreeing with everything that----
    [Laughter.]
    Ms. Hodge. Ms. Harris had to say there as well. But I think 
that this bill--if Congress passes this bill, it continues a 
conversation. It continues a conversation with employers on how 
do we handle this issue? I do not think that we have all of the 
answers today, here. Ban the Box is new legislation. So the 
data does not exist to the degree that we would like to have 
it, but I think that it is a good next step, and we are going 
to have to grow and heal as a country and find ways that we 
create employment opportunities.
    Mr. Massie. I yield back.
    Mr. Raskin. Thank you very much. And Mr. Massie, you know, 
the question you raised is an important one, and it is one that 
I hope we, that our subcommittee will get to investigate, which 
is people who are in jail or in prison for essentially 
financial offenses for not paying fees, not paying fines, 
speeding tickets and so on, not paying child support, and I 
know a lot of states are trying to work on that problem as 
well. We come now to the gentleman from Missouri, Mr. Clay?
    Mr. Clay. Thank you, Mr. Chairman. And just to continue the 
conversation with Mr. Massie. There is an effort around the 
country in the area of restorative justice. In the state of 
Missouri, it has been shown that we have debtor's prison for 
things like you mentioned, for people who do not pay child 
support. But in the St. Louis region, we have just elected two 
new prosecutors in St. Louis City, St. Louis County, who have 
done away with warrants and jail time for those do not pay 
child support. And for low-level possession of marijuana.
    And because the corrosive effect of locking someone up 
because they cannot pay child support only multiplies the 
impact. Okay, so you put them in jail, then they lose their 
job. Or they lose their privilege of driving. So they cannot 
drive to a job then.
    I mean there are all kinds of cyclical effects that happen 
to people because we go after these low-level crimes and 
because a person is poor we cannot--they cannot meet those 
fines and then they wind up doing jail. So that is a 
discussion, hopefully, this committee will continue to have.
    And that is why the First Step Act is so important. That is 
why The Second Chance Act was so important. And I want to 
continue to engage you in that. But before all of my time is 
up--well, if you have a response.
    Mr. Massie. No, I just think it was the most ironic case in 
our jail. And it also shows why this is not a democrat or 
republican issue.
    Mr. Clay. And it happens more than it should.
    Mr. Massie. Exactly.
    Mr. Clay. So let me go to my first question. But thank you 
for engaging. Ms. Harris, thank you for being here today and 
you have spoken enthusiastically in the press about criminal 
justice reform being a bipartisan issue.
    Ms. Harris. Yes sir.
    Mr. Clay. Specifically Ban the Box, initiatives like the 
Fair Chance Act, benefit not just individuals but entire 
communities. A prime piece of evidence you have identified is 
Ban the Box initiatives have been endorsed by a wide variety of 
employers from Facebook to Walmart to Koch Industry. Is that 
correct?
    Ms. Harris. Yes sir.
    Mr. Clay. The benefits of Ban the Box for individuals with 
a criminal record is obvious. It helps them get jobs they are 
qualified to do but might not otherwise get.
    How do policies like the Fair Chance Act benefit employees?
    Ms. Harris. Well again, it opens up opportunity, and I do 
not want to miss the forest for the trees, here. Again, we are 
just ensuring that folks with records will have an opportunity 
just to get their foot in the door and be able to offer, you 
know, a narrative about their job skills and qualifications 
before they, you know, they have to discuss what is, perhaps, 
their worst mistake.
    And so we are not, as Ms. Hodge said earlier today, no one 
is forcing anyone to hire anybody. But simply to give these 
individuals an opportunity.
    And you did mention bipartisanship, and I do want to note 
that I think it is just truly remarkable that a democratic-led 
committee would invite a conservative strategist from deep red 
Kentucky to serve as one of your witnesses, and I think that 
speaks to your commitment to these issues and to the 
bipartisanship that continues to safeguard criminal justice 
reform.
    Mr. Clay. We find you an excellent witness for this 
legislation. Ms. Hodge, before my time is up, you have worked 
passionately to open doors to people with criminal records 
building on your own experience which you have movingly 
testified to here. What response have you seen from employers, 
particularly public employers who have adopted Ban the Box 
policies?
    Ms. Hodge. A lot of what Ms. Harris has said. Employers are 
saying that these are their best employees. They are less 
likely to leave the job. They arrive early for employment. 
There are stories after stories of employers who are saying, by 
widening their pool, and not just blanketedly discriminating--
and now that we are using technology online. We have to know 
that algorithms are going to work faster and are discriminating 
people earlier in the process.
    Mr. Clay. Thank you both for your testimony. My time is up. 
I yield back.
    Mr. Raskin. Mr. Clay, thank you. I am going to come to the 
gentlewoman from the District of Columbia, Representative 
Norton.
    Ms. Norton. Thank you very much, Mr. Chairman. This is an 
important hearing, and one we have not looked at. I am 
impressed by the testimony we have received today from both of 
our witnesses. We are talking about Federal Government hiring 
alone.
    You know that once upon a time, the Federal Government was 
the kind of role model for the states and then the states said, 
``Well it must be all right, because the Federal Government is 
doing it.'' And now it has turned just the opposite, I think, 
as your testimony has indicated.
    I am very interested in your testimony, because this is an 
issue that seems to breach the divisions in Congress. I note, 
Ms. Harris, if you do not mind my saying so, that you are a 
republican.
    [Laughter.]
    Ms. Harris. Secret is out.
    Ms. Norton. And are here by invitation of the democratic 
chair of this subcommittee. So I do think we begin on the right 
foot. I am also impressed by the list of jurisdiction states 
who have banned the box. I cannot find a difference between red 
and blue on this issue. And as a key to, perhaps, learning how 
we can bring that to other issues as well, I would like your 
opinion, the opinion of both of you, on why this bill has seem 
to know--we used to say left or right--it is red or blue. And 
why, in particular, it would be seen as consistent with 
conservative principles?
    Ms. Harris. I am going to assume that is to me.
    [Laughter.]
    Ms. Harris. But look, you know, criminal justice reform 
policy, in general, strengthens families. We would say it gets 
government out of the way and puts people back to work. Right, 
Congressman Massie? It ensures that we are holding government 
agencies accountable. It also improves public safety, which I 
think is a goal of both parties.
    So, you know, for all of those reasons, I certainly think 
that criminal justice reform, in general, is consistent with 
conservative principles, and that is why you see some of our 
most conservative members, like Congressman Massie, like 
Senator Rand Paul, like Congressman Amash, you know, serving as 
zealous advocates for these issues.
    Ms. Norton. Certainly if you leave people who get out of 
prison with nothing, no way to earn a living, of course, that 
could be seen as an invitation to crime. So I do think that 
this makes me want to think, at least, of issues to which we 
could transfer just such thinking. In other words, what is the 
alternative? You come to the alternative pretty clear what you 
want to do.
    I do not know if you can think of other criminal justice 
reform measures that have this same kind of red and blue 
impact. Can you?
    Ms. Harris. Oh, sentencing reform, bail reform, shrinking 
criminal codes, getting rid of a lot of unfair, unnecessary 
duplicative laws, any of your reentry policies. All of the 
above have a lot of bipartisan support.
    I also would urge, and I would be remiss not to mention it, 
you know, folks here have talked about those who have relapsed 
on the job, and it is due to drug addiction. And we have got to 
be investing more money in treatment in this country. Less 
investment in jails and prisons and more investment in 
treatment, because we are not treating the core issues that 
brought a lot of these individuals to the justice system to 
begin with.
    Ms. Norton. Thanks for that insight. Now, I think--in fact 
I know that our bill is about Federal employment, and I 
noticed, Ms. Harris, that you indicated that some jurisdictions 
have banned the box in public and private employment. And then 
some, I suspect, in only public employment, and I want to know 
how jurisdictions make that distinction if some decide to go 
with only public employment, why? Any insight you can give us 
on that? Because obviously most of the jobs in the United 
States are private employment.
    Ms. Harris. Sure, and look, I think as more people see and 
hear the success stories of organizations like, for example, 
Koch Industries. I cite to that a lot, because Mark Holden is 
very free and sharing about his experiences in hiring formerly 
incarcerated individuals.
    As more jurisdictions hear those success stories, and by 
the way, as employers become more and more desperate for 
workers. I mean, now in the country, we have more open jobs 
that we have unemployed individuals to fill them. So, you know, 
as employers become more desperate, I do think there will be a 
move to further encourage private employers.
    Ms. Norton. You scare me a little bit on that. It is good 
to hear that one of the reasons is that employers need 
employees, and I remember during the Clinton Administration, 
when we got to this point as well. And we found people readily 
employing people with records.
    So if we get back beyond where we are now, we have full 
employment. Do you think there will be reversion, or do you 
think these examples will have made the case for hiring 
formerly incarcerated people?
    Ms. Harris. Oh, there is no question. I defer to Ms. Hodge 
to share so many of the stories from the individuals who are 
involved----
    Mr. Raskin. Ms. Hodge, will you answer the question, and 
then the gentlelady's time is up.
    Ms. Hodge. Yes, I am sorry. Can you please repeat your 
question, though?
    Ms. Norton. Yes, I say, of course, we are in a time when 
employers are desperate for--with full employment, it is 
called, of course, we know, people are working two or three 
jobs. And so, I am wondering if you have had enough experience 
so that when inevitably in a market economy, we go back to 
where you do not have full employment anymore, you feel that 
the lesson has been taught? That it is not a danger to hire 
formerly incarcerated persons.
    Ms. Hodge. Yes. I personally believe that the evidence is 
going to bear that. I think that is why states that have early 
adopted Ban the Box, even minimally, have gone back and have 
expanded it, Ban the Box within their states. So we are now 
starting to see that. And I think as we continue, the evidence 
will prove that banning the box is beneficial--it makes us as a 
country more fiscally responsible.
    Mr. Raskin. Thank you. The gentlewoman from the Virgin 
Island, Ms. Plaskett.
    Ms. Plaskett. Thank you, Mr. Chairman and thank you all for 
being here and to my colleagues for this, I think, very 
educational and important discussion. I want to say just as a 
point of reference that this discussion has been going on for 
quite a long time, and I am glad that this is really raising 
itself now to a point where we may have a bipartisan solution 
that makes some steps in the right direction.
    I just want to note that our chairman of the subcommittee 
was very engaged in this, and when I was his law school 
student, at American University Law School, I wrote a thesis 
where he was the advisor on the disenfranchisement and voting 
rights for convicted felons. I saw that in a box a couple of 
months ago and thought----
    Mr. Raskin. I hope you will not mind my violating your 
academic privacy, but you got an A on your thesis.
    Ms. Plaskett. I did, thank you. But the other thing I 
wanted to share was an experience that I had. I had been a 
prosecutor in the past, and I had the pleasure and the honor of 
working in the Bronx District Attorney's office. And just as a 
personal experience, I recall one day taking my sons to a 
barbershop. People had told me that this has got to be one of 
the greatest, hottest, barbershops in the south Bronx. And 
sitting there with three of my--my sons were really small at 
that time waiting for them to see the barber. It was a young 
shop. These were young guys. They even had an area of play for 
their children. And as I looked at the guy who was about to do 
my son's hair, I realized I had put him in jail. That I was the 
prosecutor.
    And so, I began to put the newspaper a little closer over 
my face as he was about to start shaving my son's head. And 
afterwards when I paid him and thanked him, you know, said he 
did a great job. He called me by name. And said, you know, 
``And I want to thank you, because you were definitely the ADA 
on that case, but I definitely did the crime and being in jail 
is where I got my barber's license from.'' But he could not 
find work and so he and two other guys from the barbershop went 
in and started their own barbershop together. And the city of 
New York gave them support to be able and lease a place to do 
that.
    And that became a safe place for not only young people. 
They were able to have their children there and care for their 
children while they were working. So these are important things 
in communities to have. And that is just a personal experience. 
But banning the box is crucial, because research shows that 
removing barriers from employment is essential to providing a 
real second chance for individuals.
    Two studies from the National Institute of Justice found 
that having a criminal record reduces likelihood of a job 
callback or offer by nearly 50 percent. You both are, I am 
sure, very aware of that. What would these penalties even apply 
to those who be arrested or who actually have not been 
convicted? Can any of you answer that? Does this apply to 
arrest, this banning the box? Or is it just for convictions?
    Ms. Harris. Well so, if you are--this particular bill 
allows the government employer to inquire into your criminal 
history but then again, that would mean that you would have to 
have been convicted of a crime. That said, as you well know, if 
you do a criminal background check, you can often see where 
someone has been arrested. So, you know, it would still be 
available to you if, you know, depending on the search 
mechanism that you are using.
    Ms. Plaskett. Sure, you know, in the panel before, Senator 
Booker cited some information from the American Bar 
Association, which stated that there were 45,000 collateral 
consequences to having a criminal conviction. I think that is 
really important for us to know. That this is just one of many 
consequences to individuals of having that.
    You cited earlier, Ms. Harris, the Virgin Islands, which 
adopted a robust Ban the Box that keeps from public and 
private, which means that employers are hiring and looking for 
good workers, because there are a staggering 30 percent of 18-
to-35-year-olds in the Virgin Islands that have a criminal 
record. Most for nonviolent offenses. Most are petty offenses 
and marijuana offenses in our case.
    And one of the other things our legislature did last year 
that I was really happy to be a part of was to remove the 
waiver for individuals to receive food stamps. Because we saw 
that we had so many families--individuals that were coming out 
of jail that unless a state allows it, will not allow them to 
receive food stamps for them and their families as they are 
trying to find work and trying to make that transition.
    So we should be working here at the Federal level to look 
at states--with the states--to see what support do they need 
from us and Federal legislation that will allow them to support 
individuals. There are a lot of other things that I would like 
to ask you all, but I want to thank you so much for having this 
hearing. This has been a really wonderful conversation, and I 
am glad to get this information on the record, so our 
colleagues can see the importance of banning the box. Thank 
you.
    Mr. Raskin. The gentlelady yields. We come to the 
gentlelady from New York, Ms. Maloney.
    Ms. Maloney. First of all, I want to thank you, Mr. 
Chairman for calling this important hearing, and I thank both 
panelists and all of my colleagues for their support and 
contribution to the discussion. I am a proud cosponsor of the 
Fair Chance Act and think that our Federal Government should 
follow the example of 34 states, including my own home state of 
New York that has enacted similar legislation. And as we heard 
from the testimony today, the Fair Chance Act is not only 
morally right, but it makes good business sense by employing 
people with a record and making it possible for them to be 
employed, and they have the dignity of work for their own life. 
Also it helps their families and actually the economic vitality 
of our country. So barring people with criminal records from 
work has real negative consequences for the economy and for the 
bottom line.
    And I want to cite two statistics that really support this. 
The National Employment Law Project, in 2014, ``America's GDP 
lost an estimated $78 billion because people with felony 
records could not participate in the labor market.'' The 
organization also found that, ``Putting 100 formerly 
incarcerated people back to work could increase their lifetime 
earnings by $55 million, increase their income tax 
contributions by $1.9 million and boost sales tax revenues by 
$770,000.'' That sounds like a pretty good deal.
    So I would like to ask Mrs. Harris and Mrs. Hodges, are 
these findings consistent with your understanding of the 
economic benefits of employing people with criminal records?
    Ms. Harris. Yes.
    Ms. Hodge. Yes.
    Ms. Maloney. And we have also established that reemployment 
of people, the dignity of work, employing them with criminal 
records adds value to our overall economy. So Ms. Hodges and 
Ms. Harris, do Ban the Box policies save taxpayers money?
    Ms. Harris. Yes ma'am.
    Ms. Hodge. Yes, it will.
    Ms. Maloney. And I agree. In fact, the National Employment 
Law Project also noted that, ``Ban the Box saves as much as $2 
million in criminal justice expenditures.'' So my question is, 
why have we not passed this earlier? This sounds like a win-
win-win, for the individual, the family, the economy, the 
country.
    Ms. Harris. Amen.
    Ms. Maloney. So why have we not passed it earlier, do you 
think?
    Ms. Hodge. I am not sure why we have not passed it earlier, 
but I am so excited that this bill is before Congress today, 
and I am hopeful that this Congress will pass this bill.
    Ms. Maloney. Well thank you so much, and I yield back.
    Mr. Raskin. Thank you so much. The gentlelady yields, and I 
come now to the ranking member of the subcommittee, Mr. Roy.
    Mr. Roy. Well you all have been extraordinarily patient. We 
are coming up on a couple of hours, I think, for those who have 
been here at the table. So thank you for your patients, we are 
about to wind down. I do appreciate the chairman. I appreciate 
all of my colleagues. And I will try to be quick.
    And full disclosure here, you know, this committee in 
particular, we have got a lot of interesting issues in 
Oversight. Maybe there is a little bit more bombast in this 
committee sometimes, because of some of the issues that are 
brought before it, and this was a very, I think, compelling 
hearing. Very nonpartisan, as Ms. Harris, you rightly point 
out. I already pointed out my affiliation with the Texas Public 
Policy Foundation, who is obviously one of the leaders on this 
with Right on Crime, this area, Right on Crime.
    But I do want to say, sort of acknowledge, that I am a 
little bit split on this issue and broadly speaking as somebody 
who believes, from my faith, my Christian faith in second 
chances and somebody who thinks that we need to follow the data 
and figure how we can best allow people to integrate back into 
society. I think this is a really important conversation.
    I am also a former prosecutor, and not unlike my colleague 
that was just talking, and so I do have some concerns about 
just making sure that as the pendulum is moving, as we kind of 
think about things, that we are making sure we are keeping our 
eye on the ball.
    So a couple of things, a couple of clarifying questions, 
totally meant to be open-ended, clarifying questions. No 
``gotchas'' or anything. I did want to come back to the Doleac 
study, because we have talked a few times about these issues 
that have been raised, and, in general, the response has sort 
of been, ``Well, that's not been my experience.'' And that is 
fine. That is an anecdotal observation that I take your word on 
it, because you spend all your days doing this. So that matters 
to me.
    But in the empirical analyses, it is not just the Doleac 
study, there are others, you know, for example, I would ask 
unanimous consent to enter into the record, a February 2017 
paper authored by two senior economists at the Federal Reserve 
Bank of Boston that analyzed Massachusetts Ban the Box reform.
    Mr. Raskin. Without objection.
    Mr. Roy. The study found, ``We find that contrary to the 
intended goal, the Corey reform,'' which is the analogous 
reform here, ``has a small negative effect on exoffenders 
employment that grows over time.'' Now to be clear, it said, 
``small negative effect,'' so I mean, I would acknowledge that.
    And as I said, with respect to Ms. Doleac, her analysis 
said, ``delaying information about job applicants' criminal 
histories lead employers to statistically discriminate against 
groups that are more likely to have a recent conviction. No. 2, 
this negative effect is driven by reduction employment for 
young, low-skilled Black men who do not have criminal records. 
No. 3, current evidence suggests that Ban the Box may not 
increase employment for people of criminal records and might 
even reduce it.''
    I could go on, and you guys have read the study. My point 
of bringing that up is only this, it is important that we look 
at that, and that is why we have got this inquiry in on the 
study, the letter that Chairman Gowdy put in last year that we 
are waiting on.
    And here is when I am going to actually get to the 
question, which is, I think Ms. Harris, you had pointed out 
about current policy with the Federal Government and hiring. 
And I think you stated something to the effect of, we need this 
law to prevent the Federal Government from having hiring 
practices that would make it difficult for those with records, 
because they have to check the box. You said something along 
those lines?
    Ms. Harris. Yes, I guess there could be action from the 
President as well, but legislation would be required. Was that 
your question? I am sorry.
    Mr. Roy. Well it is, and I am glad you said that, because 
my understanding, but please correct me if I am wrong, is that 
under current Office of Personnel Management Policy, 
established under President Obama, we already follow what is 
laid out in the Fair Chance Act but if I am wrong----
    Ms. Harris. But it does not extend to contractors.
    Mr. Roy. Okay, so here is my question and that may be fair 
and I will take your word that that is true. What data do we 
have from the experience in the last, two, three, four years--I 
do not know the date of the executive order or whatever the 
order was that would indicate how this is faring with 
employment, not the contractors if it only applies to 
employees. How are we seeing it perform with respect to 
employees?
    Ms. Harris. What I would share is that there is really no 
level of accountability for some of this and that is why I 
think it is pretty critical that when we talk--I think someone 
did make the point about implementation about ensuring that we 
are not, you know, replacing, you know, the box with something 
that could exacerbate any sort of, you know, racial 
disparities.
    And so or any sort of race issues. And so--look, I think 
your point is well taken that you know, implementation of this 
and ensuring some accountability with respect to, you know, 
what is passed by this body is critical. I would raise the 
First Step Act that we just passed. Look, when you read it, it 
is great. We are having some issues with implementation. So--
and it is my understanding that this body, all of you all are 
members of the Oversight Committee, and I am quite hopeful that 
you all will be vigilant in ensuring that when you pass this 
bill that there is a level of accountability in ensuring that 
the Executive branch does, in fact, follow it.
    Mr. Roy. Well I appreciate that. My time is winding down, 
so I will just say this one last point, which is that, I think 
I would hope that we, the committee, would be able to work on 
other things in this area.
    I think we are heavily over-criminalized. I think that I 
would like to look at over-criminalization, how we might reduce 
the number of laws that are out there. If you follow, you know, 
a crime a day on Twitter, it is pretty compelling.
    And also things like occupational licensing, which I think, 
often more at the state level, but I would at least like to 
continue to have, you know, interest in looking at some of 
these other ways that we can address these kinds of issues. And 
I thank you all very much for your time. Thank you.
    Ms. Hodge. Thank you.
    Mr. Raskin. Mr. Roy, thank you. The ranking member has 
extraordinary experience in this field. And so, I indeed hope 
that this will be just the beginning of some bipartisan 
collaboration we can do to advance things.
    I am going to ask each of you one question, and I am going 
to yield, two-point-five minutes to Ms. Pressley from 
Massachusetts. She has asked for two, but I was so moved by her 
beautiful statement before, I am giving her two-point-five 
minutes, and then I am going to enter some stuff in the record.
    So, Ms. Hodge, let me start with you. You began with a very 
powerful story about how you knew that you had the right 
qualifications. You knew you were right for the job. You filled 
it out online and then you honestly answered the question, ``Do 
you have a criminal record,'' and then suddenly it went blank 
and came up and it said, ``You have been disqualified because 
of one of your answers.''
    Now technically speaking, and maybe even more than 
technically, subsequently speaking, we are not going to remedy 
that with this legislation, because now you could not be cutoff 
at the threshold, but you go all the way through the process 
and they could say, ``Ms. Hodge is the greatest candidate we've 
ever seen,'' and then they ask you the question, ``Do you have 
a criminal record?'' And then at that point, they could say, 
``Sorry, we can't chance it.''
    So no, I understand that would not happen in every case, so 
you clearly have won by virtue of having the opportunity to get 
the job, but if that were to happen to you, what would your 
reaction be? In other words, would you feel better about such a 
process or worse about such a process? I think some of 
colleagues asked about that.
    Ms. Hodge. I would feel better. I think that most 
individuals who have an arrest or conviction record just want 
to feel as though they have a fair shot. And I have applied for 
many jobs, even prior to incarceration that I did not receive 
that I felt like I was qualified for. And so, being 
disqualified for any other reason but just the fact that I had 
a criminal record and that early on in the process was what was 
the most disheartening.
    Mr. Raskin. What an excellent answer. I think there are a 
lot of socio-psychological studies which show that people--even 
if they are not going to end up getting a job, admission to a 
college, whatever it might be, win a prize, if they feel like 
the process was fair, then they do not leave embittered by the 
experience. I thank you very much.
    Ms. Harris, let me ask you, I think that one of the tough 
things we face in this whole field is the idea that because 
someone has committed a crime, they have been adjudicated 
guilty by a jury of their peers, that, that defines who they 
are for the past and for the future. And you seem to have 
robust optimism about you. What is it that gives you faith that 
we do not have to be bound by that belief?
    Ms. Harris. Well, ``There but for the grace of God go'' all 
of us, right? I mean, again, I come from a state where a lot of 
people are very sick. No state has been ravaged by the drug 
scourge like Kentucky. And, you know, and because of that, you 
know, we have a whole lot of people who are entering our 
justice system who are not bad people but they are sick people. 
And so I certainly have the belief that if we can get these 
people well and certainly that should happen through treatment 
not through incarceration. Then, you know, of course, they can 
be different people. And the stories, you know, of Ms. Hodge 
and so many of the individuals that she works with at 
JustLeadershipUSA. Matthew Charles, my good friend, who 
actually would be considered a violent criminal is one of the 
finest people that I have ever met.
    So I would not even call it optimism. I would say, you 
know, based on my personal experience and my observations that 
this is, you know, second chances are real and that a person's 
worst mistake should not define them.
    Mr. Raskin. Thank you very much. Ms. Pressley.
    Ms. Pressley. Thank you, Mr. Chair for being so gracious as 
to allow me the opportunity to ask one more question for the 
record.
    I am reminded of a recent report produced by the IMF which 
substantiated what we all know, which is that if we had a more 
inclusive economy, what that can mean for the GDP. And, in 
fact, when it comes to closing the gender gap, specifically 
they said, if we were to address that, then we could see a boon 
to the GDP of some 35 percent.
    And so, thinking about this from the standpoint, a more 
inclusive economy, do we have any projections? In 2015, they 
said something like there were 70 million Americans with a 
criminal record or who had been incarcerated. So are there any 
economic projections of what a more inclusive economy can mean 
by eliminating these barriers to employment?
    Ms. Harris. Again, I would go straight back to that number 
that has been cited, which again, is sort of the reverse of 
your question. But on how--on the negative impact that we have 
seen to our economy by the poor job prospects of formerly 
incarcerated individuals.
    Economists have estimated the U.S. GDP was reduced by as 
much as $78 billion in 2014 alone. Seventy-eight billion 
dollars in one year. So, you know, certainly, I mean, again, 
that is the reverse of your question. I think it underscores 
the point.
    Ms. Pressley. Thank you very much, all right. And I yield 
back. Thank you again, Mr. Chair for your graciousness.
    Mr. Raskin. Oh you bet, Ms. Pressley. Thank you for your 
astute questioning today.
    Let us see, I wanted to close just by saying something 
about the very interesting point made by Mr. Grothman from 
Wisconsin about this study, and I am going to enter some 
counter studies into the record.
    But, of course, he made the interesting point that there is 
one study that shows that removing a former condition of 
incarceration as a legitimate grounds for discrimination may 
increase race discrimination. And, of course, I do not know 
whether or not it is true. There are several reports which 
undermine that claim.
    But in any event, I do not know that it is a powerful 
argument. Even if it were true, it is like saying, ``Well we 
shouldn't have the Pregnancy Discrimination Act, because some 
employers may say therefore, we'll just discriminate on the 
basis of gender.'' You cannot use one form of discrimination to 
justify another form of discrimination.
    But in any case, I am introducing one statement from Dr. 
Terry-Ann Craigie, who is a professor at the Department of 
Economics at the Connecticut College, and she makes the point 
that her confers of study finds that, ``Ban the Box policies 
increase the likelihood of public employment for those with 
criminal records by 30 percent.'' And she goes through the 
data.
    The second comes from National Employment Law Project which 
directly targets the claim that you are going to increase race 
discrimination if you develop a Ban the Box policy. The core 
problem raised by the study is not Ban the Box but entrenched 
racism in the hiring process, which manifests as racial 
profiling of African Americans as criminals, according to these 
authors. And they get into a lot of detail.
    And then, finally, from Texas A&M University--oh, that one 
has been entered already. Where is the one from--is that the 
one from the leadership conference? Okay.
    Two more, one from the ACLU called, Back to Business: How 
Hiring Formerly Incarcerated Job Seekers Benefits Your Company. 
And finally, from the Leadership Conference, a statement on the 
Fair Chance to Compete for Jobs Act of 2019.
    Mr. Raskin. I want to thank everybody for this enormously 
illuminating and fair-minded hearing. And without objection, 
all members will have five legislative days within which to 
submit additional written questions for the witnesses to the 
chair which will be sent to the witnesses for their response, 
and I ask our witnesses to please respond as promptly as you 
can.
    And again, we thank you for your excellent testimony today. 
The hearing is adjourned.
    [Whereupon, at 4:36 p.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
